                        General        Office of
                        Services       Inspector
                        Administration General     Washington, DC 20405




     Honorable Gerald P. Carmen
     The Administrator
     General Services Administration
     Washington, D.C.  20405

     Dear Mr. Carmen:

     The following semi-annual report of the Office of Inspector General
     for the period April 1, 1981, through September 30, 1981, is submitted
     pursuant to the Inspector General Act of 1978 (Public Law 95-452,
     Section 5(b)).  In accordance with this law, you are required to
     submit this report to the appropriate committees or subcommittees
     of the Congress within thirty days after receipt of the report,
     together with a report containing any comments you deem appropriate.

     This report is divided into two parts. The first part deals with
     the operations of the Office of Inspector General for the 6-month
     reporting period, and is organized to conform to the specific
     requirements of the Act.  The second part discusses the organization
     and staffing of the Office of Inspector General and summarizes the
     activities and accomplishments of the Office over the full fiscal
     year.

     The period covered by this report was one of transition for the
     Office. As is demonstrated by the matters detailed in the report,
     I believe the Office has accomplished much and has carried out its
     assigned responsibilities in a professional manner.  Since taking
     off e in August 1981, I have received the full support of the
     Office of Inspector General staff and of GSA top management in
     embarking on a number of initiatives which I believe will further
     improve the ability of the Office to combat fraud, waste, and
     abuse and to promote economy and efficiency in the operations of
     GSA.
\)


     These initiatives, which are described in the following Overview,
     will require a major commitment of existing resources.  I believe
     they will significantly benefit the OIG, GSA, and the taxpaying
     public.
2


I am pleased to offer this report and look forward to working with
you and the Congress to achieve our common goal of a Government
agency characterized by the highest standards of integrity, economy
and efficiency.
Sincerely,




    ~",-,---?t--a
          SICKON
                ~
             General

Enclosure
                              OVERVIEW


I.   Significant Findings and Activities

During the six month reporting period the Office of Inspector
General identified a number of major areas within the GSA in which
there was opportunity for achieving or improving program results
with significantly greater economy and efficiency and for reducing
vulnerability to fraud.  These matters have been reported to
management which has generally been receptive and responsive to
our recommendations.

One area where such opportunity exists is in the agency's Space
Acquisition and Utilization function.  Among the major deficiencies
found were: (1) a newly constructed building was left unoccupied
for an extended period and was deteriorating from not being 'used;
(2) Government-owned property was being appropriated for private
use without reimbursement to the Government; (3) lease renewals
or extensions were untimely, resulting in needless increased cost
to the Government: (4) escalation clauses for some existing leases
were made without benefit of audits of the lessors' proposals,
or comparative analysis of actual costs with proposed costs,
again resulting in significant losses to the Government; and,
pe      most importantly, (5) the basic systems which GSA relies
     to tell it how much space it has, who occupies it, and how
much is vacant, were seriously inaccurate. These matters and
others in the space acquisition and utilization area are discussed
on pages 2 through 7 of this report.

The Supply Procurement and Distribution area also presented
opportunit s for significant improvement. We found that: (1)
   ncies were given credit for items they returned which did not
meet established criteria for credit; (2) low dollar value
items    uired by other agencies were procured by GSA when they
could      been bought more cheaply and expeditiously by the
   uiring agencYi and (3) imprecise Commercial Item Descriptions,
along with other weaknesses in procedures for buying items for
      stock were costing the Government about $2 million annually.
Recommendations concerning these findings, discussed on pages 7
and 8, have been favorably received by management.

We found that significant improvements' could be made in the agency's
$40 million donated property program.   In some areas legislative
changes are needed and we recommended that management develop
proposed legislation that would establish more reasonable control
mechanisms for this program.  This matter is discussed on page 9.

Reviews in the Financial Management area disclosed serious weak-
nesses in accounting systems and procedures and related controls.
The accounting weaknesses included failure to properly identify
and record obligations and to ensure that payments were supported
by necessary documentation and were made to the properly identified
vendor.  Internal control weaknesses included inadequate procedures
for systems development and implementation and control over
emergency travel and other expenses.  These deficiencies resulted
in lost funds to GSA, wasted expenditures, inaccurate reporting
to Congress, and opportunities for fraud, waste and abuse.  These
items are discussed on pages 9 through 11 of this report.

Other areas where   we found significant opportunities for improvement
in GSA operations   were Price Reduction and Defective Pricing
Contract Clauses,   Bonding Procedures, and SBA Small Business
Contracts.  These   areas are addressed on pages 11 through 13.

Several items included as significant problems in prior semi-
annual Inspector General reports remain unresolved.  They relate
to Energy Conservation, Repair and Alteration Contracts, ADP
Systems, Disposal of Surplus Real Property, and Surety Bonds.
We will continue to press for action on these items.  These
items are discussed on pages 14 and 15.

During the period we continued our emphasis on aggressively
     ing and providing direct support in criminal, civil and
     istrat     actions against those firms or persons who have
defrauded or attempted to defraud the Government. We also used
our subpoena power where necessary to obtain information critical
to      cting the Government's interests. We have vigorously pushed
    additional emphasis on debarments or suspensions of firms with
a history of fraudulent conduct or otherwise unacceptable back-
       or performance.   This area is discussed on pages 16 through
23
Final  , we have reviewed and developed a number of legislative
and regulatory initiatives which would significantly affect GSA
operations.  These matters are discussed on pages 25 and 26.

II   Init      s

We have embarked upon a number of initiatives both within the
Off    of the Inspector General and with respect to the agency
as a who   which we believe will significantly improve our
ef   t     SSe


Presently, we are working to increase GSA management involvement
in combating fraud and promoting efficiency in the agency.    With
the assistance of the Administrator and top agency managers, we
are proposing establishment of working groups to identify major
  ency-wide problem areas, to review these areas, and to make
recommendations on how to deter fraud and improve economy and
  f  i       In addi tion', we have initiated IG-sponsored training
courses to make all GSA employees more aware of their personal
responsibilities relating to correcting or reporting agency problems,
and to acquaint them with the role of the Inspector General's Office
in this area.

We are also establishing a comprehensive system which will identify
each program and organization in GSA, and rank these entities as
to their vulnerability to fraud, waste and mismanagement. These
rankings, combined with factors such as program significance and
management concerns, will allow us to assess the relative priorities
of areas for potential IG scrutiny, and to use the limited resources
available to the best possible advantage.  Closer evaluation of the
results of our efforts will also enable us to identify any changes
in policy, staffing, planning, and procedures needed to enhance
the performance of this office.

Another initiative is to increase our efforts to more effectively
utilize the talents of the various disciplines within the Inspector
Generalis Office. Auditors, investigators, lawyers, inspectors
(architects, engineers, contract specialists), will be working
more closely to ensure that the training and talents particular to
each of these disciplines are focused on the management and opera~ing
problems of the GSA in a fully coordinated manner.

Finally, we are establishing an IG-wide Management Information
System.  This system, which is to be operational by September 30,
1982, will provide current information on the inventory of items
subject to review by this Office, allow identification of these
items on a priority basis, track the progress on individual audits,
inspections, or investigations, permit categorization of the results
of these reviews by type of finding, by GSA component, and by
function or program.  The system will also provide the data needed
for an evaluation of our own effectiveness in the use of available
resQurces as well as improve our ability to respond to particular
areas of management and Congressional concern.
                          TABLE OF CONTENTS



PART 1 - REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT
         FOR THE PERIOD APRIL 1, 1981, TO SEPTEMBER 30, 1981


         I.   HIGHLIGHTS OF INSPECTOR GENERAL'S ACTIVITIES       1
              FOR SIX MONTHS ENDED SEPTEMBER 30, 1981


        II.   SIGNIF,ICANT PROBLEMS, ABUSES, DEFICIENCIES,
              AND RECOMMENDATIONS FOR CORRECTIVE ACTION
              DURING THE CURRENT REPORTING PERIOD                2

              A.   Space Acquisi~ion and Utilization             2
              B.   Buildings Management                          7
              C.   Supply Procurement and Distribution           7
              D.   Surplus and Stockpile Material                9
              E.   Financial Management                          9
              F.   Other Significant Items                      11


       III.   STATUS OF SIGNIFICANT RECOMMENDATIONS
              MADE IN PREVIOUS REPORTS ON WHICH
              CORRECTIVE ACTION HAS NOT BEEN COMPLETED          14

        IV.   MATTERS REFERRED FOR CRIMINAL, CIVIL AND/OR
              ADMINISTRATIVE ACTION ...:.-- INSPECTOR GENERAL
              SUBPOENAS                                         16
              A.   Criminal Referrals                           16
              B.   Investigative Referrals                      16
              C.   Criminal Prosecutions                        16
              D.   Civil Referrals; Recoveries, and
                   Settlements                                  18
              E.   Administrative Referrals                     19
              F.   Suspension and Debarment Referrals           20
              G.   Significant Criminal Referrals               21
              H.   Subpoenas                                    23

        V.    UNREASONABLE REFUSAL OF INFORMATION OR
              ASSISTANCE                                        24


       VI.    REVIEW OF LEGISLATION AND REGULATIONS             25


      VII.    REPORTS ISSUED BY THE OFFICE OF THE
              INSPECTOR GENERAL FOR THE PERIOD
              APRIL 1, 1981, TO SEPTEMBER 30, 1981              27
I.   HIGHLIGHTS OF INSPECTOR GENERALIS ACTIVITIES
     FOR SIX MONTHS ENDED SEPTEMBER 30, 1981
                    ~3                                3$
     -  Issued 503 audit reports, 201 covering GSA internal
        operations and 302 involving GSA contractors •
                        .s 'I ~;
                       ! ,2~     J)
      - Reviewed over $650 million in costs with recommended
        savings of over *1~1 million.
      - Referred 74 matters to prosecuting authorities.
               I () '}
      - Made 32 referrals to other Federal agencies for further
        investigation or other action.
                           I; t:)
     - Secured IS indictments and '9 convictions on criminal
       matters referred.

     -   Initiated               21
                      referrals for civil action to the Department of
         Justice with potential recovery of more than ~4,~ million.
                                      /]                       HS
      - Recommended 31 suspensions and 48 debarments of private
        contractors.
                                           ,2
      - Reviewed approximately 19 legislative and regulatory
        initiatives.
                         G~ C'
                18 subpoenas to secure information vital to our
         operation.

           Issued 77 inspection reports with potential savings of
         . over $~5.~ million •
                   . . !

      - Directed a multiple disciplinary, mUlti-agency investiga-
        tion of a major consultant contractor which resulted in a
        criminal referral to the Department of Justice.

      - Made one criminal referral, two civil referrals, and one
        recommendation for suspension of multiple award contractors
        because of their failure to disclose current, accurate, and
        comp te data in their dealings with GSA.   Further crimin~l
        and c il referrals to the Department of Justice are expected.

      - Participated, with other agencies, in the development
        of propos   regulations which would restructure and
        strengthen the Government-wide debarment/suspension
            tern.

      - Receiveq 749 hotline calls and letters and
                                                ).~"!               J"   '~'~,
                                                                                 28   GAO referrals.
                                                                                           (.,')
                                                           I
      - Participated in 10 projects initiated by the President's
        Council on Integrity and Efficiency. I : ; ! u, }




                                                  1
II •



                  Section 5(a)(1) and 5(a)(2) of the Inspector
                  1978,       ing is a description of significant
                  s, deficiencies, and recommendations for corrective
                 the    r   April 1, 1981, to September 30, 1981.

       A.            isition and Utilization

                      Vacant

The new U.S. Courthouse located in Hato Rey, Puerto Rico, has
         tanti     vacant for 5 years and is expected to remain
             the next 5       resulting in $4.8 million being
was                  is ue to repeated refusals by the U.S.
Courts to move into the building even after GSA made modifica-
t               by the Courts and other improvements at a cost
               At the same time, GSA spent $622,000 on the old
         e in San Juan, Puerto Rico, where the Courts are now
        to make it more habitable for court use. This expendi-
ture, at a time when the new courthouse is vacant, is questionable
since it gives the courts further incentive not to move.

'fhe                  has contributed to physical damage to the
new cou            its contents, such as:  damage caused by
     tes, mildew on new and unused furniture due to the air-
condit   i   not in use, and a collapsing ceiling in a judge's
            r.
In        to centralize the Courtis operations, space must be
              four additional judges. This requirement was not
          in the original building design.  In June 1981, GSA
           a prospectus to expand the new Hato Rey facility to
meet this      irement. However, this expansion will take about
           Thus~ if the Courts do not move until the entire
          is ready, the existing vacancy will span 10 years
(5                lapsed plus the 5 years for the expansion).
This      tes to 20 percent of the useful life of the building.

Recomme     ions were made on April 1, 1981, that GSA notify the
     ress that acceptance of the pending prospectus be contingent
upon a firm commitment from the Courts to fully occupy the new
courthouse as soon as alterations were complete~ .and that GSA
        earnes    seek agreement from the U.S. Courts to immediately
occupy as much of the new courthouse as possible. Additionally,
we recommended that GSA immediately inspect the building for
  te       ion problems and any other adverse conditions and take
necess     corrective measures.




                                   2
PBS officials concurred with our report but felt that formal
notification to Congress regarding the acceptance of the prospectus
was not necessary since (1) Congress was well aware of the situation
through hearings it had held, and (2) GSA believed they already
had a firm commitment from the Courts to occupy the new facility
when the expansion was completed. Also, the building was inspected
and necessary maintenance measures taken.

                                     Million in Excess of


Safeguards in policies and procedures for awarding escalations
    increased operating costs must be strengthened to avoid
excessive increases to lessors. On one escalation, at least $3.3
million in excess of projected operating costs was granted to a
  ssor. Conditions within GSA that permitted such escalation
awards      ded the absence of specific lease provisions that
required (1) the submission of a Certificate of Cost or Pricing
Data, and (2) the pe ormance of a comparative analysis of actual
   rating costs with proposed escalations. Also, procedures did •
not specifi   ly require contracting officers to obtain independent
au ts of escalation proposals in excess of $100,000.

Financial data provided by the lessor in the cited case supported
an operating cost escalation of no more than $1.8 million over the
next 5     rs, which was $3.3 million less than the $5.1 million
      iated by GSA. The lessor's submission for the proposed
escalation did not contain adequate financial information and
the escalation rate awarded by GSA was based upon insufficient
      resulti   in an ineffective and wasteful negotiation. We
recommended on June 29, 1981, that:   (1) lease escalation proposals
    evaluated by applying cost analysis and not solely price analysis;
(2) operating officials respond in a timely manner on escalation
    , als and request audit assistance to enable them to negotiate
more favorable settlements; (3) a Certificate of Current Cost or
Pricing Data be furnished to the contracting officer with each
escalation proposal; (4) actual historical operating costs be
included as part of the proposal; and (5) actual costs (rather
than initial negotiated rates) be used in establishing the basis
for escalation.

Also, we recommended that until such time that a nationwide
guideline was issued, the National Capital Region should adopt
a policy of requesting preaward audits on all lease escalation
propos s in excess of $100,000.

This matter was brought to the attention of the Administrator and
is actively being pursued. As a result of his inquiry, the Public
Buildings Service has informed us that they are in basic agreement
with our recommendations; however, a mandatory threshold for
requesting
    ,
           audits has not yet been established.




                                3
Overp~ments   to Lessor

Deficiencies in the review of an initial lease and the related
supp         lease agreements resulted in overpayments to a lessor
by $234,000 during a 5-year lease period. The lease contained
       ion clauses for the building's operating costs and real
       taxes. Adjustment amounts were based on costs incurred
       the prior         period and costs projected for the upcoming
       period, and were determined through negotiation.

The     sor was overpaid because the annual rental was not reduced
by a $46,862 utili    adjustment factor which should not be applied
to the    ase for that 5-year period. Further, because the utility
adjustment factor was also included in the annual rental for the
curre              iod, additional overpayments of $234,000 would
    made to the lessor if the annual rental was not corrected.
               re      to the negotiation of the lease escalations,
             1980, did not show that the prior supplemental lease
            were reviewed or the utility adjustment considered.

                on       7, 1981, that:  (1) the annual rental
               be         by $46,862 in accordance with the supple-
              agreement, (2) overpayments made be recovered, and
                        and related supplemental lease agreements
               ior to      iating new supplemental agreements •.

In        ing to our       , the Regional Administrator stated
that corrective action had been initiated to implement each
re

                                                           GSA


                   a review requested in March 1980 by the Subcom-
                   Buildings and Grounds, House Committee on Public
                       ion, disclosed that inaccuracies in both
                       Service Info~mation System (PBS/IS) and on
               ings precluded space management officials from
             ctively         ning actual quantities of vacant space
              that GSA was receiving payment for space that was
            As a result:   (1) GSA lost $1.3 million in Standard
Level             es that should have been collected from occupying
                   the PBS/IS was not updated; (2) 84 percent of
            vacant space reported by the PBS/IS on May 1, 1980,
               for immediate occupancy was actually unavailable;
        adjustments to the PBS/IS eliminating 2.5 million square
        vacant         from the system were not fully supported.
        ,       ings showing the space occupied by agencies existed
          2     10 selected buildings.

              s and            used in validating space occupied
      tomer agencies were found inef ctive. If space surveys were
    ormed at the planned level in the National Capital Region, it


                                 4
would take 19 years for them to be completed. Use of census
information solicited from individual agencies is ineffective as
demonstrated by the fact that 23 of 26 agencies contacted used
their Standard Level User Charge billings to identify the quantity
and type of space they occupied.   Insufficient planning and a lack
of adherence to a Firesafety Report caused GSA to spend over
$100,000 for vacant space in the Penn Park Building.   Further,
8.5 million square feet of vacant space was no longer reported to
Congress as vacant because GSA had removed it from that classifi-
cation and recorded it under a classification titled "unmarketable,"
which was defined as not suitable for occupancy or sale to the
general public.   Although the "unmarketable" classification is
valid, it is not reported to Congress as vacant space, when, in
fact, it is vacant. A more accurate presentation would have
   n to include it under the vacant space classification with a
footnote showing the amount of square feet in that total which
was unmarketable.

We recommended on April 22, 1981, that action be taken to:
(1) initiate procedures to assure timely processing of changes
to the PBS/IS to accurately reflect the vacant space inventory;
(2) establish a followup procedure to insure that all changes to
          inventory are entered accuratelYi (3) remeasure buildings
         total occupiable square feet is suspect and prepare a
               justifying any adjustments; (4) assure the building
               ng space assignments and vacant space are updated
       ntained on a current basis; (5) perform an annual agency
       to update the number of workstations and personnel occupying
            (6) establish a review process to evaluate each building
                   basis to determine whether it should be scheduled
             i and (7)     those buildings not scheduled for disposal
                immediately reclassified and returned to the active
          under the proper category.

The Commissioner, PBS, and the Regional Administrator concurred
with all recommendations and identified specific actions planned
or               to correct these problems.

Government Real

Government real property, adjacent to a new Federal office building
   Hato Rey, Puerto Rico, had been improperly used by a neighboring
     rty owner. The adjacent landowner developed the property
             their parking lot onto the Government1s land in
          without permission. Approximately $150,000 in gross
            revenues had been realized by the landowne~ during
              iod and the Government had not been reimbursed.

We               on April 9, 1981, that GSA take immediate action
to recover the land and initiate a claim against the adjacent
         r to recover the value of profits that have been generated
over the     t 7    ars.  The Regional Administrator concurred in
our findings and recommendations.


                                5
Mosler Safe Company Value Engineering Change Proposal
Should Not Be Approved

Acceptance of a pending Value Engineering Change Proposal (VECP)
contract modification would result in unnecesspry expenditures of
more than $300,000. GSA awarded a contract to furnish and install
a material handling system in the Metro West Building, Baltimore,
Maryland. The original contract specifications required a system
capable of handling 60 pound payloads. This stringent requirement
    ctively limited the number of potential contractors. Ultimately,
           bidders responded.

Almost immediately after the award of the contract, the successful
low b      informed GSA that he could not perform the contract
as bid, and submitted a VECP offering another type of material
    ling system.   The system proposed under the VECP had been
        ly considered and rejected by GSA during the planning and
              because it was capable of handling only 20 pound pay-


A  this point, GSA could have terminated the contractor for default
             the contract to the next low bidder. The contractor
     their sureties would have then been liable for the additional
contract costs of $134,850 and liquidated damages of $600 per day
         delay in completion in accordance with 41 CFR 1-8.709-1(b).
If GSA    cided that a reduced payload capacity was acceptable,
then two additional alternatives were available: (1) the contract
     d have been readvertised with the less stringent requirements;
    (2) the specifications could have been relaxed and a credit
              negotiated with the contractor. The first alternative
       have resulted in more competition. The second might have been
      s favorable alternative, but one that co~ld be defended if time
   performance was critical.

Rather than accepting one of the above alternatives, the specifi-
   ions were relaxed for the purpose of permitting performance
   the con     tor. A decision of the Comptroller General concluded
   t this     ion had the effect of distorting competition on
       the       was based, and thus was improper. By recommending
            of the VECP, the Project Manager agreed to reward the
contractor for his failure to perform by permitting him to share
      ly in a cost reduction of at least $350,000 for a lesser
   tern plus maintain his original overhead and profit of $193,690.
  is    ,    our opinion, unacceptable.

We recommended on April 24, 1981, that the VECP not be approved
and that the contractor be paid only a fair and reasonable amount
    the material handling system. To date, management has not
          to our recommendations.




                                6
Management Study on Succeeding Leases in the National Capital
Region, Calendar Year 1980

A review of the performance of the National Capital Region (NCR)
with respect to leasing continuing space requirements between
January 1 and December 31, 1980, revealed that with the exception
of those leases that were transferred, terminated, condemned,
or had renewal options, expiring leases were not promptly renego-
tiated, and as a result, lapsed into a "holdover tenancy." Under
the "holdover tenancy" arrangement, GSA continues to pay the
rental rate specified in the expired lease until a new lease is
negotiated. However, when the new lease is negotiated, its rates
are retroactive, back to the expiration date of the old lease.

In three large holdover leases that we reviewed, the new rental
finally negotiated was substantially higher than the rate initially
proposed by the lessor to be effective when the old lease expired.
The additional rental on these three leases was $3.1 million.   If
GSA had negotiated leases promptly based on the lessor's initia~
proposals, significant savings could have been made. We recommended
on September 14, 1981, that a Special Leasing Group be established
to promote the prompt negotiation of expired leases.

The Administrator has established a task force and has taken steps
to implement the recommendations.

     B.   Buildings Management

Excessive Energy Use

Deficiencies in the operating procedures of one of the GSA Build-
i~gs Management Field Offices have resulted in the excessive use
of energy in the heating and cooling of buildings operated by
the field office.  In order to provide after-hours heating and
cooling under two reimbursable work authorizations from the
occupant agencies for 54,000 square feet of space, the.field
manager is actually conditioning 416,000 square feet of space,
or almost 8 times the space occupied. This is resulting in
unnecessary costs of $128,000 per year to the Government. Addi-
tionally, the field office is not charging the agencies requesting
overtime services the full amount of costs incurred to operate
the buildings on overtime, and therefore, GSA is subsidizing the
other agencies for the amount of some $57,000 per year. As a
resu , there is less incentive for those agencies to conserve.
On September 10, 1981, we recommended that individual air-condi-
tioners be installed to service the 54,000 square foot area.

     C.   Supply Procurement and Distribution
GSA's Material Return Program

Credits of approximately $231,000 were given to customer agencies
for materials which they returned when the returned material did



                                 7
not qualify for credit. The purpose of the Material Return
Program is to reduce purchases of new items by allowing customers
to return the same item to GSA stocks. However, the returned
material must be properly identified, must be in reasonably good
condition, and must be needed in the supply system before credit
will be   sued.  The erroneous credits were issued because a
control designed to prevent the issuance of credits for material
not meeting the criteria was not properly implemented. We
recommended on May 19, 1981, that the control procedures be
strengthened and the erroneous credits recovered.
Management agreed with the recommendations and has taken action
to implement them.

Small Purchase Program

Three reviews were made concerning the Federal Supply Service's
(FSS) administration of GSA:'~ small purchase (under $10,000)
     am. These reviews showed that money and time could be
       by allowing users to buy their own small order non-stock
    irements and by reducing the amount of paperwork used in
purchases under $500. Because all requisitions, including those
         value nonstore orders, are accepted for procurement,
hundreds      purchases are made annually where the administrative
   ts exceed the value of the items purchased. In one region
      , we estimated that FSS incurred between $88,000 and $113,500
 n such costs during fiscal year 1980. Additionally, time required
to generate the paperwork necessary to make these low dollar value
procurements lengthens the procurement process, wastes staff time,
    adversely affects service to customer agencies. We recommended
         ts dated June 10, June 18, and July 13, 1981, that actions
          to reduce the number of low dollar value requisitions.

FSS       ment generally agreed with our recommendation but empha-
sized that the fundamental precept behind FSS' small purchase
           the principle that valid customer needs must be




GSA       about $12 million worth of wiping rags annually, mostly
    the Department of Defense. Procedural weaknesses applicable
to            urements were costing the Govermment about $2 million
per year. These weaknesses included questionable procurement
       1 imprecise Commercial Item Descriptions, absence of
verification of delinquent shipments, unclear procedures to depots
           sing items to be inspected at the destination, failure
to take prompt payment discounts, nop-use of inspections at the
source of shipments, improper unit of purchase (should be bales
rather than    uods) and less than adequate quality assurance
i     ct       As a result of recommendations made on May 22, 1981,
FSS h    made changes in procedures and operations which will not
only save the Government some $2 million annually, but will increase
    quali    of products received and reduce administrative costs on
procure      of rags and other products.

                                8
      D.   Surplus and Stockpile Materlal

Significant Improvements Can Be Made in the Personal Property
Donation Program

The Federal Property and Administrative Services Act needs to be
revised to permit the development of a more efficient and economical
Personal Property Donation Program.  Presently, about 500,000 items
of surplus property with acquisition costs that usually total over
$400 million are distributed among some 60,000 eligible donees
annually.  Although most of these items are of relatively small
residual value, have no identifiable markings and are in such
poor condition that they can be used only for secondary purposes,
the current law requires the enforcement of rigid time and use
restrictions on all items. Donated property must be placed in
use within 1 year and used for a period of 1 year.

Because of the magnitude of the task, the State Agencies for
Surplus Property who execute the program, and the Federal Property
Resources Service which administers the program, are unable to
assure donee compliance with these use restrictions. Therefore,
we recommended on August 3, 1981, that management develop a
legislative proposal that would revise the Federal Property and
Administrative Services Act to allow the Administrator some
  scretionary authority to waive, as necessary, time restrictions
on utilization for broad classes of personal property with an
acquisition cost below $3,000.  Items whose acquisition cost is
   ~ than $3,000 constitute 96 percent of the property but only
20 percent of the residual value of the property transferred to
eligib   donees.  However, because of the ongoing potential for
misuse of donated property, the report also recommended the
    lopment of an exception reporting technique for monitoring
the volume of property received by various donees to deter serious
or widespread abuse. Also, to strengthen restrictions on items
over $3,000, the report recommended amendments to the law to
require that donees certify compliance with the use and holding
period restrictions prior to their receiving title to the property
at the end of the period of restriction.

      E.   Financial Management

The    lowing reviews disclosed serious weaknesses in accounting
   tems and procedures and related internal controls. The account-
ing weaknesses concerned properly identifying and recording
obli   ions and ensuring that payments were supported by necessary
documentation and were made to the properly identified vendor.
Internal control weaknesses related to inadequate procedures for
systems development and implementation and control over travel
and other expenses during emergency situations. These deficiencies
resulted in lost funds to GSA, wasted expenditures, inaccurate
      ing to Congress, and opportunities for fraud, waste and
abuse

Management was generally responsive to recommendations in our
        concerning these matters and have taken or plan to take
necessary corrective action.
                                  9
Properly Identifying and Recording Obligations

We found that obligations recorded in the Federal Buildings Fund
were overstated by about $2.2 million at the year-end closing.
Undelivered orders were improperly classified and accruals were
greater than required. The main reason for these conditions was
the absence of comprehensive year-end reviews of obligations,
particularly open items. We recommended on August 28, 1981,
that more comprehensive reviews be conducted during the fiscal
year 1981 year-end close with particular attention toward correct-
ing the    cribed deficiencies.

Management has concurred and initiated corrective action.

Process ins   paym~nts

Payments for utilities were not properly supported. Authoriza-
tions for service were missing, as were confirmations that service
had been initiated or terminated. As a result, overpayments
could not be identified sufficiently to achieve recovery.

Payments were also made to new vendors without following existing
             to ensure that the names and addresses of those vendors
were authentic, and that they were doing business with the Govern-
ment. Payments to unvalidated vendors amounted to $317,000 in
one month. This presents opportunities for fraud if a false invoice
     a fictitious vendor is submitted and processed. We recommended
on June 30,     81, that vendors be authenticated, contract files be
kept up to date, and timely action be taken on initiations and
term     ions for utility services.

Management concurred with the recommendations and has initiated
corrective action.

System Development and Control

GSA       over $265,000 developing an automated billing system
    stockpile sales, and then the    tem was terminated just
before it was to be implemented. The documentation supporting
the decision to terminate this system was not adequate, nor
was documentation on the development of other projects or the
maintenance of other systems. We recommended on September 30,
1981, that the decision to terminate the system be reevaluated
and supported by more adequate documentation, and that documenta-
tion on other projects be kept current.

Management is currently studying these recommendations, but
has n6t yet responded to this recent report.



Internal controls over procurement, travel, payroll, and billings
were either inadequate or not followed during the Cuban Refugee
Emergency   Ambulance services, ponchos, and other items were

                                 10
purchased without sufficient competition, resulting in excess
expenditures of over $78,000. Travel advances to Federal Pro-
tective Service officers were not properly controlled, nor were
they liquidated promptly. Further, procedures were inadequate
to identify reimbursement due for services provided by these
officers. There was a lag between the creation of the obligation
and its appearance on financial reports, and funding guidance
was conflicting. We recommended on June 11, 1981, that management
prepare a procurement handbook covering future emergencies; travel
advances be limited to authorized amounts; a summary record be
kept of all authorizations, advances and liquidations to ensure
prompt processing;  procedures be established for reconciling
payroll records and identifying reimbursement due; and all valid
obligations be expeditously recorded into the system.

     F.   Other Significant Items

Consultant Contracts

During this reporting period, we directed a multi-disciplinary
investigation of a major consultant contractor. Since our
findings had indicated possible wrongdoing in connection with
other Government agencies, a multi-agency task force was organized
to pursue, under our direction, a coordinated investigation.
As a result, a referral was made to the u.S. Department of Justice
on April 20, 1981. The matter is currently under grand jury
investigation, and we are continuing to coordinate closely the
efforts of the various agencies involved. This new approach
       nts an expansion of the ongoing review of consultant
contractors reported previously.

Price Reduct     and Defective Pric

W€ made a ser s      coordinated reviews concerning price reduction/
defective    icing cases. The defective pricing clause in the
GSA contract requires the contractor to certify that accurate,
comp      and current data have been provided to the GSA contracting
officer for use in determining the terms of the contract to be
negotiated. After the award of the contract, the price reduction
clause requires the contractor to reduce its contract prices in
the event that prices to other customers are reduced. The purpose
of the former clause is to ensure that the Government negotiates
based on the most complete and accurate information available.
The purpose of the latter clause is to ensure that the contractor
maintains an equivalent pricing relationship between the Government
account and commercial customer accounts throughout the contracting
period.

Audits and investigations during this reporting period have
disclosed that in some instances, contractors failed to disclose
accurate, complete and current data to GSA. Continued auditing
of contracts has revealed that such nondisclosure has led to the
Government's loss of substantial amounts of money in higher
  ices paid    During the reporting period, two criminal referrals,
two civil referrals, and one recommendation for suspension have
resulted.   Further criminal and civil referrals are expected.


                                    11
Potential recoveries to the Government in the millions of dollars
are anticipated as a result    these newly coordinated special
efforts in this area.

Action to Prevent Bonding Abuses

Cur~ent reviews have disclosed apparent fraudulent activities by
corporate suret   I individual sureties, and factoring companies.

In many    tances, GSA contracts require a contractor to post a
bid and/or   rformance bond. A bid bond, which may be required at
the discretion    the contracting officer, is designed to protect
the Government by ensuring a source of funding for damages should
the bidder be unable to accept the contract at his bid price.
            bonds are required by law in certain instances. A
            bond guarantees performance. Two types of sureties
                  bonds:  corporate sureties, which must be
            the Department of the Treasury, and individual sureties.

            to corporate sureties, our reviews found that fictitious
                created with names closely resembling those on
                   Treasury's approved list. We also found the
                 of fraud to have been perpetrated by individual
           (1) inflating the value of assets listed in the required
             net worth; (2) listing assets not owned or not wholly-
       (3) simultaneously pledging the same assets to support
      on several contracts with different Government agencies;
    (4) forging certificates required to be submitted in support
   the surety's    fidavit.

Often contractors participating in the bidding process as small
businesses utilize factoring companies. The factoring company
        s "up front" financing necessary to ensure the contractor's
          and expenses are met. A factoring company requires the
            to execute an assignment agreement with GSA, whereby
GSA then       money owed to the contractor directly to the
factori    company.

           instances I factoring companies have failed to mee't
       obI           towards contractors, who in turn have failed
        their employees.    As a result, several contractors have
   au       on GSA contracts.   In order to prevent such defaults
or related fraudulent activities, we have developed the practice
   recommending the disqualification of sureties and factoring
       ies which have acted improperly or which we have reason to
         are engaged in improper activities. This is accomplished
      ~~~~oss similar to the suspension of a firm or an individual.


We recommended to the Public Buildings'Service (PBS) on several
occas      the use of a procedure which provides   tter notice to
the sureties or factoring companies, briefly setting forth the
       s for and duration of the unacceptability of these sureties



                                   12
or factoring companies. The sureties and factoring companies
are then given the opportunity to respond and present in writing
any information they deem relevant to rebut their unacceptability.

PBS has used this process in one instance, and similar actions
are currently pending. We believe this type of action will help
protect the Government from incurring problems and losses associated
with contract defaults based on these improprieties.

SBA Minority Small Business   Contract~

Under the Small Business Administration's minority small business
(8(a» program, the Small Business Administration enters into
contracts with Government agencies, such as GSA, and then arranges
for the performance of such contracts by subcontracting to minority
firms.

Our ongoing review of the program described in our last report
was expanded in order to discover whether GSA was contracting
with firms which either were no longer disadvantaged, or should
be terminated from the 8(a) program because they had made no
progress towards the goal of financial viability. As a result,
the Small Business Administration is anticipating the termination
of one contractor which is no longer disadvantaged, and one
contractor for making no progress towards financial viability.

Problem Relating to Debarment Actions

At the end of the last reporting period, there were 112 debarment
recommendations pending in the Office of Acquisition Policy.   Since
its inception OAP had not assigned a sufficient staff to handle the
debarment recommendations.  In fact, it had only one part-time
professional assigned to the project. The backlog of debarment
actions became critical during this reporting period. Our concern
was the danger that contracts could be let to contractors that
should have been debarred.

After apprising the Administrator of General Services of this problem
in August 1981, the Assistant Administrator for Acquisition Policy
was directed to assemble a task force and reduce the backlog by
September 30, 1981. This action resulted in 64 proposed debarment
actions being issued; 22 debarments being effected; and 43 debarment
recommendations being declined during this reporting period.
Automatic suspensions were imposed on the 64 contractors proposed
for debarment.




                                  13
III.   UNRESOLVED SIGNIFICANT RECOMMENDATIONS DlSCLOSED
                                        .--~-----~

       IN PRIOR SEMI-ANNUAL REPORTS

As required by Section 5(a)(3) of the Inspector General Act of 1978,
shown below are significant matters and recommendations disclosed
in prior Inspector General reports which have not been completely
resolved.

                 ion

During the prior reporting period, we reviewed energy conserva-
tion efforts in two regions - the New York and the Washington
          In each instance, the report recqmmended that (1) energy
            be accurately compiled and analyzed in order that
wastefu energy practices can be identified, and (2)        tial
       savings be thoroughly analyzed      documented prior to
     nitiation of any energy retrofit project. The Commissioner,
PBS,    lied to the report concerning the Washington region and
concurred in the recommendations. The Commissioner has not
replied to the report concerning the New York region.

        and Alteration Contracts

Our    or report cited a review    two Government-owned buildings
i     ion 2 where improper contract administration practices had
         in $344,000 in unnecessary costs. That report recommended
that disciplinary actions against GSA contracting officials be
considered and that contracting authority be withdrawn from those
employees who have demonstrated incompetence. However, at the
time of our last report, Region 2 had suspended action on this
recommendation pending completion of a related investigation by
this Office. This investigation is ongoing.

Problems Relating to GSA's ADP Systems

The       ceding report stated that GSA had not developed adequate
contingen~y/recovery    plans for its major sensitive computer
    terns. We recommended that the agency prepare a detailed risk
ana         and develop a contingency/recovery plan for the FSS-19
    tern.   In responding to the draft report, the Assistant Adminis-
trator for Plans, Programs, and Financial Management concurred
with our findings and recommendations and indicated that a plan
was under development which would provide for a risk analysis
and that after the risk analysis was completed and recommenda-
t       acted on accordingly, a contingency/r~covery plan would be
  veloped. However, in responding to the final report, the
Ass tant Administrator reevaluated his position and stated that
          analysis was not needed. This matter has not yet been
       ved.
Several recommendations were made to the Commissioner, FSS, and
the Assistant Administrator for Plans, Programs, and Financial
      ment concerning strengthening controls for the General


                                   14
Supply Fund system. The primary one was for GSA to develop an
input security system for the Finance and FSS data entry devices.
As of May 26, 1981, this and and several other recommendations
have not yet been implemented. We will continue to follow up
until resolved.

Disposal of Surplus Real Property

One recommendation contained in an audit report of "Disposal of
Surplus Real Property" remains unresolved.   GSA did not have an
effective program for identifying underutilized Federal real
property and ensuring its reuse or disposal.   Relatively few
properties (1.8 percent) were subject to utilization surveys
(as required by Executive Order 11724) during fiscal year 1978
and 1979. We recommended that the number of survey inspections
be increased.

Management's replies to the draft and final reports indicated
agreement with the finding but expressed an inability or unwill-
ingness to perform more surveys "because of budgetary and other •
restraints." One reason management placed a low priority on the
survey program was because of resistance encountered in obtaining
reports of excess from property holding agencies.

The matter was referred to the Acting Administrator for resolution.
He instructed the Commissioner, FPRS, on May 22, 1981, to prepare
a time-phased action plan to correct the utilization survey
deficiency.

Surety Bond Problems

In a memorandum dated November 20, 1980, to the Office of Acquisi-
tton Policy (OAP), the Inspector General recommended that GSA
adopt procedures similar to those used by the Department of the
Treasury for evaluating and processing individual sureties.   It
was further recommended that if such procedures could not be
implemented, then the FPMR and the GSA Procurement Regulations
should be amended to prohibit GSA acceptance of individual surety
bonds.

The initial response of OAP was that contracting officers are
improperly insisting on surety bonds in connection with GSA
guard and janitorial contracts. We do not believe this response
from OAP adequately addressed our recommendations and concerns.

As of the close of the reporting period OAP had the matter under
review and advised that action was contemplated in the near future.




                                15
IV.   MATTERS REFERRED FOR CRIMINAL, CIVIL AND/OR ADMINISTRATIVE
      ACTION --- INSPECTOR GENERAL SUBPOENAS

As required by Section 5(a)(4) of the Inspector General Act of
1978, provided is a summary of matters referred to prosecutive
authorities and resulting prosecutions and convictions during
tHe period April 1, 1981, to September 30, 1981.

      A.    Criminal Referrals

Our office made 74 criminal referrals to the Department of Justice
for prosecutive consideration. Of the 74 criminal referrals,
17 were declined.  In addition, there were 19 declinations on
referrals made in previous reporting periods. The primary reasons
for declining prosecutions were:

- although a technical violation may have existed, there was a
  lack of harm to the Government or the public;

- there was nominal dollar loss to the Government;

- the matter lacked jury   appeal~

- corrective action could best be initiated through other means.

       B.   Investigative Referrals

Our office made 32 investigative referrals to other Federal agencies.
These referrals were made for whatever investigative or other
action the recipients deemed necessary.

       C.   Criminal Prosecutions

Figure 1 illustrates by types of individuals the number of indict-
ments, convictions, dismissals/acquitals, sentences, and sentences
pending during this reporting p~riod. There is not nec~ssarily
any correlation between the number of indictments and convictions
during the reporting period as the convictions may have resulted
from indictments returned in previous reporting periods.




                                    16
                        Identification of Individuals and Firms
                             in the Criminal Justice System
                       April 1, 1981, through September 30, 1981

                       Indictment/ Convictions  Dismissal/                       Sentences
                       Information Pleas Trials Acquittals Sentences              Pending
GSA Employees               4          2           1          1          4              0

Firms                       0         0            0          2          0              0

Officers, Employees,
Principals, and
Agents of Firms             7          3           0          2          3              0
Other Individuals           3         1            0          0          1              0

Other Government
Agency Employees            1          2           0          0          1              1
TOl'AL                     15         8            1          5          9              1


                                     Figure 1

Figure 2 illustrates the types of persons indicted during this
reporting period as they relate to the GSA services. Over
two-thirds of those indicted were non-Government individuals.


                    Identification of Indicted Individuals and Firms
                                       By Service
                      April 1, 1981, Through September 30, 1981
                            AJJl'S   FPRS        FSS   NARS       PBS   TPUS     Total
GSA Employees                   0      0           2     0          1        1      4

Firms                           0     0           0      0         0      0         0

Officers, Employees,
Principals, and
Agents of Firms                 0      0           0     0          7        0      7

Other Individuals               0      3          0      0          0     0         3

Other Government
Agency Employees                0      0           0     0          0     1         1
Total                           0      3           2     0          8     2        15

                                     Figure 2
                                            17
Figure 3 illustrates the results by Service of criminal
actions taken during this reporting period.



              Summary by Service of Criminal Actions Taken
               April 1, 1981, Through September 30, 1981

                Indictment/                                                Sentences
ervice          Information            Convictions          Sentences       Pending

ADTS                    0                   0                    0              0

 FPRS                   3                   1                    1              0

 FSS                    2                   2                    1              0

NARS                    0                   0                    0              0
PBS                     8                   4                    5              0

TPUS                    2                   2                    2              1

Total                 15                    9                    9              1
                  _._--------
                                       Figure 3


        D.   Civil Referrals, Recoveries and Settlements

During this reporting period, we made 31 referrals for civil
action to the Civil Division of the DepartmeDt of Justice or the
appropriate United States Attorney.   (This statistic and other
statistics indicating actions taken on civil referrals are
reflected in Figures 4 and 5.) The total amount of potential
recoveries for the 31 civil referrals is more than $4.3 million.
In the 89 treferrals pending at the close of this period, the
total amount of potential recoveries is more than $8.7 million.



                            Action on Civil Referrals
                                4/1/81 to 9/30/81
             Pending                                             Pending
              3/31/81          Referred            Action        9/30/81
                62*               31                  4              89

              *The previous report did not accurately state the
               number of pending civil referrals as of 3/31/81.


                                        Figure 4

                                           18
                                Recoveries Ordered
                    April 1, 1981, Through SepteI1.lber 30, 1981

                        Amount               Number            Amount     Total Amount
 Type of Order      4/1/79-3/31/81       4/1/81-9/30/81    4/1/81-9/30/81 4/1/79-9/30/81

 Judgments           $1,749,695                1            $ 71,211       $1,920,906
 Settlements            344,000                5             178,351          522,351
 Restitutions           185,650                2              17,087          202,737


                                        Figure 5

      E.     Administrative Referrals
As illustrated in Figure 6, 130 referrals to agency officials for
administrative action were made during this reporting period.
These referrals normally involved nonprosecutable wrongdoing on
the part of GSA employees, contractors, or private individuals
doing business with GSA. In addition to these referrals, we made
99 referrals to agency officials for informational purposes only.



             REFERRALS FOR ADMINISTRATIVE AcrIrn 'ID AGENCY OFFICIALS
                             AND RESULTS OF REFERRALS
                    April 1, 1981, Through September 30, 1981

                                                   Administrative Action    Pending
   Pending with        Referred for Admin-           Taken by Agency       With Agency
 Agency Officials       istrative Actions             4/1/81-9/30/81          9/30/81
        87                        130                       132                 85


                                        Figure 6




                                          19
      F.      Suspension and Debarment        Referra~s

The Office of Inspector General has continued its efforts to make the
debarment/suspension process a more effective and more readily used
means of protecting the interests of the Government in connection
with GSA's multi-billion dollar procurement activities.
The Offices of Special Projects and Investigations have given special
attention to identifying potential debarment/suspension cases and
referring them for action by agency officials. We had experienced
difficulties in the responsiveness of the OAP to our debarment
recommendations. This matter was brought to the attention of the
Administrator as reported in Section II.
Senior representatives of the Office of Special Projects have also
played an active role in advocating and developing specific proposals
for making improvements in the debarment/suspens'ion process both
within this agency and Government-wide.
During this reporting period, we made 31 suspension and 48 debarment
referrals to agency officials as illustrated in Figure 7. As a result
of those referrals, six suspensions were imposed and 28 debarments
were effected.


                          ACI'IONS TAKEN ON REFERRALS FOR
                               SUSPENSION AND DEBARMENT
                     April 1, 1981, Through September 30, 1981
                 Referrals   Referrals                           Referrals
                  Pending     4/01/81-           GSA Action       Pending
                  4/01/81     9/30/81         Pinal Declined      9/30/81
 Suspensions        35          31              **6       23       ***35
 Debarments       *112          48            ***28       43       ***90,

    *Seven debarment referrals reported in preceding report were withdrawn
     as additional information disclosed that debarI'lEnt action was not
     necessary.
   **Pive of the six suspensions were terminated by a Service.
  ***Two proposed debarments and six debarI'lEnt actions resulted from
     suspension referrals.


                                     Figure 7




                                         20
      G.   Significant Criminal Referrals

As reported in Section III, 74 referrals for pros"ecution were made
during this reporting period. Of these, 63 were the result of
investigations developed by the Office of Investigations and the
other 11 were developed by the Office of Special Projects. Selected
referrals for prosecution are summarized below:

           1.   False_Claims and Bribery of PBS Employees

Our Office of Audits reported its suspicions that a contractor
had submitted false claims for over $200,000 for change orders
under a labor and materials contract worth over $1 million. As
a result of our investigation, the contractor has admitted to
having conspired to bribe a PBS employee to approve false change
orders. Subsequently, the GSA employee admitted to receiv~ng
substantial bribes. Additionally, the contractor has agreed to
provide information regarding other possible violations involving
GSA. Our investigation is continuing.

           2.   False Certification in FSS Contract

Our investigation disclosed that a subcontractor, who manufactured
red lead paint for a GSA contractor, falsely certified that the
product met GSA contract specifications. GSA purchased over
$98,000 of red lead paint which did not contain sufficient lead
content, making it unfit for use as a corrosion-resisting primer
on iron and steel. This matter was also referred to the Civil
Division of the Department of Justice for recovery of the entire
amount GSA paid for the defective paint plus any civil penalties
involved. We recommended that the subcontractor be suspended
from doing business with GSA. Action involving criminal, civil,
and administrative remedies are presently pending.

           3.   Wage Underpayments and False Claims by a PBS
                Contractor

A GSA Regional Administrator referred an allegation that a GSA
repair and alterations contractor was underpaying his employees
and falsifying certified payrolls. A second source reported
that the contractor was paid $60,000 for work not done on the
$981,000 contract. The investigation determined the contractor
underpaid 15 employees nearly $29,000 and falsified 25 certified
payrolls.   Information was also developed that GSA was overcharged
$141,000. Criminal prosecution was declined. The U.S. Attorney
filed a civil suit against the contractor for $500,000 and
preparation for civil trial is underway. The contractor has
been suspended from doing business with GSA.




                                  21
          4.   False Contractor Bids and Bribery of PBS   Employe~

Allegations were received that a PBS employee falsified bid
documents in order to steer contract awards to certain contractors
and that some of the contractors did not furnish work for which
they were paid. The president of one contracting firm has pleaded
guilty to falsifying competing bids in the nam,es of other companies.
He also admitted paying off the PBS employee. 'We have recommended
that the contractor and his firm be debarred from doing business
with GSA. Another contractor has verified a $400 payoff to this
same GSA employee and admitted to falsifying a bid form submitted
to GSA.  Our investigation is continuing.

          5.   PSS Defective Pricing in Multiple Award Schedule
               Contracts

Two national contractors doing business with GSA knowingly
failed to disclose marketing data to GSA contracting officers
which would have assisted the contracting officers in obtaining
better discount structures for GSA. Our investigations showed
resultant Government overpayments to these two contractors are
in excess of $3.5 million. Our investigations are continuing
with the assistance of the two U.S. Attorneys I offices that are
involved. To date, one of the two firms has been recommended
for suspension.

          6.   PPRS Surplus Sales (Vehicles and Accessories)

A private citizen tendered about $18,000 in worthless checks to
GSA for the purchase of 13 surplus Government vehicles and
material. Our investigation disclosed that the individual used
three separate bank accounts and four aliases on documents
furnished to GSA to perpetrate this crime. The individual was
indicted, pleaded guilty, and was sentenced to 5 years' probation,
250 hours of public service duty, and ordered to make a total
reimbursement to the Government.

In another investigation, a private citizen tendered about $10,000
in worthless checks to GSA for the purchase of six surplus Government
vehicles as well as a quantity of tires and batteries. Search
warrants were issued and five of the six vehicles are now back
in GSA custody. The sixth vehicle was sold by the culprit to a
third party who purchased it in good faith.  Prosecution is pending.

In the third case, two individuals were indic.ted by a Federal
grand jury for conspiracy. The individuals used assumed names and
issued worthless checks drawn on three different banks to purchase
12 surplus Government vehicles totaling about $21,000. The trial
is pending.




                                 22
     H.   Subpoenas

In the course of audits, inspections and investigations, we
have found that serving subpoenas is effective and productive
in collecting information. We have served 173 subpoenas since
April 1979, and 18 of these were served during this reporting
period.  In the previous report (October 1, 1980, to March 31,
1981), we noted that 9 subpoenas were served to financial insti-
tutions as required by Section 1105 of the Right to Financial
Privacy Act of 1978 (12 U.S.C. 3401 et seq.). We have not
served any additional subpoenas that-Would be affected by this
Act.




                               23
v.   UNREASONABLE REFUSAL OF INFORMATION OR ASSISTANCE

The Office bas encountered no instances of unreasonable refusal
of information or assistance during the reporting period.




                                24
VI.   REVIEW OF LEGISLATION AND REGULATIONS

As required by Section 4 (a) (2) of the Inspector Ge.neral Act of 1978,
we reviewed approximately 19 legislative and regulatory initiatives.
Among the more important areas in which we have provided comments
and/or Congressional testimony are the following:

-- Generally agreed with S.533, the bill proposing to establish
public buildings policies for the u.S. Government and the Public
Buildings Service of GSA. We did not agree with GSA's recom-
mendation to delete the section requiring contractors to supply
certified information when bidding on a contract. We believe
this information will assist contracting officers in making the
requisite responsibility determinations and in evaluating a
contractor's performance record. Moreover, this requirement
would be in part analogous to provisions in effect since May 1980
(adopted in response to OIG recommendations) which have proven
to be useful and effective devices in other areas of Government
procurement.

-- Objected to H.R.933, an amendment to the Privacy Act which
would apply to telephone records. The procedures in the bill
would unnecessarily restrict the use of vital investigative
techniques. Safeguards against possible abuse by law enforcement
officials already exist in other legislation.

-- .Supported H.R. 2137, which would.amend the Inspector General
Act of 1978. This amendment would establish a fixed term of
Office for Inspectors General and restrict the conditions under
which Inspectors General could be removed; it would thereby further
assure the independence of the Office of Inspector General.

-- Generally supported S. 1327 which would amend the Inspector
General Act of 1978. This amendment would allow an Inspector
General to recover funds due the Government by a civil action,
after the case has been referred to the Department of Justice and
criminal or civil action has not been initiated. This amendment
would also require an Inspector General to establish schedules
and deadlines for disposition and final resolution of audits.

-- Supported the Department of Justice Draft Bill No. 50,
Program Fraud and Civil Penalties Act of 1981. This proposal
would provide mechanisms for administrative action when criminal
or civil action by the Department of Justice would be impractical.

   Opposed Section 1703 of the Omnibus Budget Reconciliation Act
of 1981 regarding Inspector General Cash Awards. This provision
would duplicate the Federal Incentive Awards Program and would
be burdensome to administer.

    Supported the Inspector General Amendments Act of 1981. By
allowing the Inspectors General to make recommendations to the
Special Counsel of the Merit Systems Protection Board, this Act
would in certain circumstances provide for the immediate removal
or suspension of an employee.

                                25
-- Opposed S. 1120, the Waste, Fraud, and Abuse Reduction Act
of 19810 While we certainly support efforts to control waste,
fraud, and abuse, this bill would create duplication of the
budget process and disincentives with respect to reporting
waste, fraud, and abuse.

-- Supported the Debt Collection Act of 1981. After reviewing
two versions of the bilL, we preferred S. 1249 to H.R. 281l.
This is because S. 1249 has more provisions which strengthen
the U.S. Government's ability to collect its debts without
jeopardizing the due process rights of its debtors.

-- Generally agreed with S. 961, Limitation of Government
Recordkeeping Requirements Act of 1981. We supported the goal
that the public not be unduly burdened by recordkeeping
requirements; however, the current statutes and regulations
concerning record maintenance is preferable to the five-year
rule in S. 961.

-- Generally supported the objectives of H.R. 2580, Federal
Property and Administrative Services Act.  We prepared testimony
which was given before a House of Representatives Subcommittee
and provided written comments concerning this bill. We support
the certification and monetary assessment provisions, which
would bring direct and substantial benefits to the Government1s
contracting process. The audit and investigative provisions,
however, would detract from the independence and professional
judgment of Inspectors General. We do not agree that decisions
for the alteration of leased facilities should be left to Congress.
Instead, this decision is best left with the Administrator as
otherwise it would involve Congress in operational/management
functions, and would likely lead to increased performance delays
and fncreased costs.

-- Developed, as part of an inter-agency team, proposed regulations
which would restructure and strengthen the Government-wide
debarment/suspension system.  Participated in inter-agency work
groups considering such changes and provided detailed comments
on proposed OMB policy letter on revisions of debarment/suspension
system.




                               26
VII.   REPORTS ISSUED BY THE OFFICE OF THE INSPECTOR GENERAL
       FOR THE PERIOD APRIL 1, 1981, TO SEPTEMBER 30, 1981


       Pursuant to Section 5(a)(6} of the Inspector General
       Act of 1978, Appendixes I and II lists each audit and
       inspection report issued by the OIG during the
       reporting period.




                                 27
                          TABLE OF CONTENTS



PART 2 - OFFICE OF INSPECTOR GENERAL ACTIVITIES DURING
         FISCAL YEAR 1981


         I.   HIGHLIGHTS OF INSPECTOR GENERAL'S
              ACTIVITIES FOR FISCAL YEAR 1981            28


        II.   OFFICE OF INSPECTOR GENERAL ORGANIZATION
              AND STAFFING                               29


       III.   OPERATIONS AND STATISTICS                  31

              A.   Office of Audits                      31
              B.   Office of Investigations              35
              C.   Office of Inspections                 39
              D.   Office of Special Projects            40
              E.   Interagency Efforts                   42
I.   HIGHLIGHTS OF INSPECTOR GENERAL'S ACTIVITIES
     FOR FISCAL YEAR 1'981

During fiscal year 1981, the Office of the Inspector General:

     -    Issued 934 audit reports and 175 inspection reports.

     - Opened 677 investigative cases and closed 736 investigative
       cases.

      - Reviewed over $1.2 billion of costs resulting in
        recommended savings of $130 million.

      - Reviewed and commented on 32 significant proposed laws
        and regulations.

      - Made 194 criminal referrals for prosecution to prosecuting
        authorities.

      - Made 109 referrals to other Federal and State agencies
        for further investigation or other action.

      - Carried out or assisted in investigations which led to
        the indictments of 56 and convictions of 37 individuals
        or firms.

          Made 243 referrals for administrative action and 231
          referrals for informational purposes to GSA management
          officials.

     - Made 76 suspensions and 145 debarment referrals.

      - Received 1,385 hotline calls, letters, and 58 GAO referrals.

      - Participated in 10 projects initiated by the President's
        Council on Integrity and Efficiency.

      -   Initiated an agency-wide training program on integrity
          awareness.

      -   Initiated work on an integrated Management Information
          System to allow the Inspector General to better plan,
          control and evaluate total office operations.

      -   Issued 66 subpoenas.

      - Developed and conducted a comprehensive in-house
        training program which included courses in multiple
        award contracting, lease award and administration,
        excess and surplus property, and ADP systems.




                                    28
    II.   OFFICE OF THE INSPECTOR GENERAL ORGANIZATION AND STAFFING

    Since the swearing in of the second Inspector General of the
    General Services Administration on August 5, 1981, the existing
    organizational structure has remained intact@ Consideration
    is being given at this time to some realignments to provide
    more effective planning and evaluqtion.

    The staffing level of the Office of Inspector General is being
    reduced as indicated in Figure 1 below in order to comply with
    prevailing budget constraints. Additional staffing reductions
    required to meet the current FY 1982 level can be achieved
    through attrition. At that level it is anticipated that the
    effectiveness of the Office of Inspector General efforts to
    detect and prevent fraud, waste and m             in the Federal
    Government can be preserved through continued strong professional
    commitment.




                      OFFICE OF INSPECTOR
                         DISTRIBUTION OE'

                                                                       Current
                                        On                             FY 1982
                                                                       Ceili

     Inspector General,
\     Immediate Office         6                   3                         6

    Offices of:
     Audits                  280                   9          8            269
     Investigations          129                0           137            131
     Inspections              71               77                           69
     Special Projects         22               23               19          21
     Executive Director       15               1                 5          1

                             523                            5              511

                 .------
                                   pi    e 1




    One of our major goals is to raise the                           GSA
    on the issues related to integri
    personal. We have initi      a program of
    training agency-wi   to accomplish this            1.




                                        29
The program is designed for presentation to managers, supervisors,
and all professional level employees and support personnel ,as
needed.  The program includes:  familiarization with the mission,
structure and function of the Office of Inspector General;
Bribery Awareness - how to react in order to preserve both
individual rights and investigative potential; Fraud Awareness -
situations with fraud potential and some ways to detect and
pravent them.

The materials consist of text, slides, video tape and instructor
guides, which incorporate material released under the auspices
of the President's Council on Integrity and Efficiency in
Government. The presentation of the material will be made by
personnel of the Office of Inspector General and coordinated
by the Human Resources and Organization staff of GSA.  The
manager/supervisor presentation will be included in all of the
newly designed management and supervisory training classes to
be held during fiscal year1982~ a first year target population
of approximately 1,500 people.  Presentations will be made to
employees as a part of existing agency training courses, and.
in OIG conducted briefings during fiscal year 1982.




                               30
III.   OPERATIONS AND STATISTICS

       A.   Office of Audits

The Office of Audits provides internal and contract audit
service to the General Services Administration,

The contract audits provide officials within GSA procuring goods
or services from the private sector advice as to the allowability,
allocability and reasonableness of costs proposed by the provider,
as well as opinions as to the adequacy of the provider's accounting
records for the purpose of enforcing the contract, its compliance
to certain statutory requirements, and its status as related to
such considerations as small business and supplier to the general
public.

The internal audits deal with all facets of GSA operations, and
are designed to determine whether the financial statements covering
various elements fairly present the results of operation, whether
the operations are being performed in an economical and efficient
manner, and whether the programs assigned to GSA are being
accomplished.

Contract Audit Accomplishments. During fiscal year 1981, the
Inspector General issued 546 contract audit reports reSUlting in
recommended savings of $130 million. Figure 2 shows the breakdown
of those audits by type for the entire fiscal year and Figure 3
displays the same information for the current reporting period.
As of September 30, 1981, there were no unresolved contract audit
reports 6 months old or older.

Internal Audit Accomplishments. During fiscal year 1981, the
Office of the Inspector General issued 388 internal audit reports.
Figure 4 recaps the number of reports issued for the reporting
period and for the fiscal year by organization.




                                   31
                            Surmnary of Contract Audits Corrq;:>leted
                                       Fiscal Year 1981

                                                      'rotal Dollars
                                      Number of          Reviewed       Questioned Costs
Type of Audit                       Re~rts Issued      (in.thousands)    (in thousands)

SUEElies, Canmunication
and Services

  Multiple Award Contracts
   Preaward Evaluations                  70            $ 346,279           $ 18,257
   Postaward Evaluations                 57              442,849               14,373
  Initial Pricings-Cost Type             99                177,578              13,298
  Time and Material Contracts            14                  5,487                   142
  Cost Incurred Audits                   21                 24,143                   432
  Other                                  20                 11,705               2,306
  Total Supplies,
  Communication and
  Services                              281            $1,008,041              $48,808
Construction and Rental
of Space
  Architect-Engineer Proposals           54            $    33,197         $     4,015
  Change Orders                          29                 11,803               3,282
  Claims                                 58                 51,682              34,416
  Initial Pricings                       34                  9,661              2,882
  Construction Management                 6                 25,605                   228
  Lease Alterations                       9                  9,633               2,478
  Lease Escalations                      63                 50,994             30,
  Defective Pricings                      1                    410                     0
  Terminations                           11            $     3,098               2,887
  Total Construction and
  Rental of Space                       265            $   196,083

Total Contract Audits                   546            $1,204,124          $129,611

                                         Figure 2
                                              32
                                                                                 l
                         Summary of Contract Audits Completed
                       April 1, 1981, Through September 30, 1981


                                                 Total Dollars
                                   Number of       Reviewed        Questioned Costs
Type of Audit                     Reports Issued (in thousands)     (in thousands)
Supplies, Communication
and Services
 Multiple Award Contracts
  Preaward Evaluations                    27          $157,586        $ 5,165
  Postaward Evaluations                   41           210,866          6,822
  Initial Pricings-Cost Type              58           155,989         11 ,377
 Time and Material Contracts               5             2,273             85
  Cost Incurred Audits                    18            16,191            374
 Other                                    13             6,539          1,165
  Total Supplies, Canmunication
  and Services                           162          $549,444        $24,988
Construction and Rental
of Space
  Architect-Engineer Proposals            27          $ 17,714        $ 2,294

 Chffi,lge Orders                         19             5,884          2,499
  Claims                                  21            32,124         23,683
  Initial Pricings                        13            5,251           1,282
  Construction Management                     2          2,098             32
  Lease Alterations                        5            4,884           1,161
  Lease Escalations                       45            32,847         20,901
  Defective Pricings                       1               410               0

  Terminations                                7           131              84

 Total Construction and
 Rental of Space                         140          $101,343        $51,936

Total Contract Audits                    302          $650,787        $76,924

                                     Figure 3

                                         33
                         INTERNAL AUDIT REPORTS


                                 Reports Issued    Reports Issued
                                 4/1/81-9/30/81        FY 1981
                                 Number      %     -Number     %

Office of Management,
Policy, and Budget                  44       22       80       21

Public Buildings Service            68       34      128       33

Federal Supply Service              28       14       70       18

Federal Property Resources
Service                             22       11       34        9

Automated Data and
Telecommunications Service              6     3       11        3

National Archives and
Records Service                         2     1        4        1

Transportation and Public
Utilities Service                   26       13       53       13

Other (Presidential
Commissions, etc.)                      5     2        8        2

Total                              201      100%     388      100%


                               Figure 4




                                   34
        B.   Office of Investigations

The following figures detail investigative and related statistics
for fiscal year 1981.  Each of these figures, except Figure 12,
includes the workload activity of both the Office of Investigations
and the Office of Special Projects.

Figure 5 illustrates the types and numbers of investigative cases
which were opened and closed during fiscal year 1981.

In addition to our investigative case workload, we received and
evaluated 2,565 complaints or allegations involving GSA employees
and programs which, based upon analysis, did not warrant conducting
a formal investigation. We made these determinations on the facts
that the allegations were either not specific, did not justify
investigative action, or only warranted referral to program
officials or other agencies for informational purposes.



                     Investigative Workload Activity
                             Fiscal Year 1981

                             Pending                            pending
Case Category                10/1/80         Opened    Closed   9/30/81

White collar crime
( fraud, bribery,
ebezzlement, and
false cIa ims)                 433             338       413       358

Other crimes in
GSA-oCcupied space              77             122       103        96

Contractor
suspension/Debarment            79              44        46        77

Employee Misconduct             47              71        72        46

Proactive Investigation         38              26        27        37
Other                           36              76        75        37

TOTAL                          710             677       736       651


                                 Figure 5


Criminal Referrals.  During the entire fiscal year 1981, we made 194
criminal referrals. As of September 30, 1981, we have 207 criminal
referrals pending prosecutive determination and/or action.
Prosecution was declined in 59 instances during fiscal year 1981.



                                        35
Investigative Referrals.  In fiscal year 1981, we made a total of
109 referrals to other Federal and state agencies. These referrals
were made for whatever investigative or other action the recipients
deemed necessary. Figure 6 shows a breakdown of both criminal and
investigative referrals during the fiscal year.


                          Investigative Referrals
                              Fiscal Year 1981
                                           ·Referrals to
    Total                                other Federal       StatelLocal
   Referrals            Justice             Agencies           Agencies

        303              *197                  105                  1

   *3     for informa t ional purposes

                                    Figure 6
Figure 7 ~ovides a breakdown of the number of indictments, con-
victions, dismissals/acquittals, sentences, and sentences pending
during the fiscal year. There is not necessarily any correlation
between the number of indictments and convictions during the report-
ing period, as the convictions may have resulted from indictments
returned in ~evious reporting periods. Of the 56 indictments
returned during fiscal year 1981, 15 involved GSA individuals.


                        Identification of Individuals and Firms
                             in the Criminal Justice System
                      October 1, 1980, through September 30, 1981
                        Indictment/ Convictions  Dismissal/                Sentences
                        Information pleas Trials Acquittal  Sentences       pending

 GSA Employees               15        12      1        2           14          0

 Firms                          8        4     1        3            6          0

 Officers, Employees,
 Princip3.1s, and
 Agents of Firms             22        10      3       10           20          0
 Other Individuals              8         4    0        0            4          0

 Other GOvernment
 Agency Employees               3         2    0        0            1          1

 'IDTAL                      56          32    5       15           45          1

                                    Figure 7

                                         36
· Figure 8 provides a breakdown of indictments returned during
  fiscal year 1981, as they relate to the GSA services. Over
  two-thirds of those indicted were non-Government individuals.
  Information regarding the results by Service of criminal
  actions for the same period is summarized in Figure 9.


                        Identification of Indicted Individuals and Firms
                                           By Service
                          October 1, 1980, through September 30, 1981
                               ArlI'S    FPRS        FSS   NARS        PBS   TPUS       'lbtal
    GSA employees                 0        3           3     0           7     2          15
    Firms                         1        2           4     0           1     0           8
    Officers, Employees,
    Princi};als, am
    Agents of Firms               6        4           3     0           9     0          22
    other Individuals             0        7           0    1            0     0           8
   Other Goverrnnent
   Agency Employees               0        0           0     0           0     3           3
    'IOTAL                        7      16          10     1          17      5          56

                                               Figure 8


                    Summa.ry by Service of Criminal Actions 'Iaken
                    October 1, 1980, through September 30 I 1981

                    Indictment/                                              Sentences
       Service      Information         Convictions        Sentences          Pending
       ArlI'S              7                     0                 0                0
       FPRS              16                    11                11                 0
       FSS               10                      9               10                 0
       NARS                1                    1                 1                 0
       PBS               17                     13                20                0
       TPUS                5                     3                 3                1

       'lbtal            56                     37                45                1


                                        Figure 9

                                           37
   \




Sus        and Debarment Referrals.  As depicted in F
we         sus pens                 145 deba rment re
during FY 1981.

It should be noted that of the 90 debarment referrals pending as
of 'September 30, 1981, debarment action has been proposed by the
agency in 64 instances.



                      Actions Taken on Re rrals for
                         Suspens n and De rment
                             Fiscal Year 1981


                 Referrals       Refe~rals
                  Pending         10/i/80-
                  1    80         9/30/81
 Sus pens ions                             76             36         28            35

 Deba rments         45                   145                        60



                                      Figure 10


                           As              in Figure 11, 243
r                        i  s          nistrat    act     were
made during fisca     r 1981.   (It should be noted that these
figures do not include those recommendat ns made as part
inspection and audit reports.) These referrals normally involved
nonprosecutable wrongdoing on the part of GSA employees, con-
tractors, or private individuals doing business with GSA.    In
  dit n to these administrat      referrals, we made 2    other
administrat    referrals for in rrnat     1 pur       only.



            Re                 Administrat    Act    to
                            ials and Results of Referrals
                                Fiscal Year 1981


                           Referred                  Administrat
  Pending with            Administrat                Action Taken by            Pending
       Off ia1s               Action                                          With    ncy
            o             10    0-9              1   10                   1    9      1

       34                       243                            192                 85



                                      F     ure 11

                                                38
Hotline: Calls, Letters, and GAO Referrals. During fiscal year
1981, we received 1,385 hotline calls and letters and 58 GAO
referrals. These calls, letters, and GAO referrals were evaluated
and, if action was warranted, were referred to GSA program officials,
other Federal agencies, or were retained for audit, inspection, or
investigative action. Figure 13 shows a breakoown of their
dis:r:osition.


                        Disposition of FY 1981 Hotline Calls,
                              Letters, and GAO Referrals
  No Further                Audit/Inspections/             GSA Program         Other
 Action/Closed               Investigations                 Officials        Agencies
              724                    75                        265                   379

                                          Figure 12

              C.    Office of Inspections

During fiscal year 1981, we issued 175 inspection reports. As shown
in Figure 13, these 175 re:r:orts covered some 1,778 contracts, with
a total dollar value of over $179.6 million. Our inspections
identified over $18.1 million in potential savings and over
$13.2 million in identified losses.


                            Office of InsJ;ections Re,p)rts Issued, Contracts
                               Reviewed and Results Attained for FY 1981
                        Nurrber of Number of    'Ibtal Ibllar         lbtential            Identified
                         Re,p)rts  Contracts Value of Contracts      Savings (in           Losses (in
 Program Areas           Issued    Inspected   (in thousands)         thousands)           thousands)
 Leasing                    62         III          $ 26,351             $     822          $ 4,694
 Construction                9            46          63,300                   185            3,200
 Buildings
  Op:::! rat ions           58       1,531            51,258                 1,423              320
 Energy                      4             4                                 6,100           1,300

 Federal Supply             42            86          38,700                 9,600            3,700
 'IOTAL                   175        1,778          $179,609             $18,130            $13,214
                                                      (/

                                           Figure 13

                                               39
      /   '
During the current reporting period, 77 reports were issued
covering some 695 contracts with a contract dollar value over
$89.6 million. The potential savings identified th    reporting
period amount to over $15.2 million and the identified losses
approximate $8.2 million.   (Figure 14)


                               of Ins p::ct ions ReIDrts Issued, Contracts
                         Reviewed and Results Attained        the Cu:rrent
                      ReIDrtirg Period (Atril 1, 1981-September 30, 1981)
                 Numl:::er of NumlJer of 'lotal Ibllar         potential     Identified
                  ReIDrts Contracts Value of Contracts                (in    lOsses (in
           Areas  Issued                                       thousands     thousands

 Leasirg              14                       $22,             $     622     $ 3,468

 Construction          5          5                 ,400              185            754
 Buildirgs
  Op::rations                                     37,558            1,223
                       2          2                                 5,900       1,150
           Su:pp.ly   21         40               19,200            7,300            700
 'IDTAL               77        695            $89,609          $15,230        $8,


                                      Figure 14

     D.    Office of S                  ects
The Off e of Special projects conducts special mult    isci inary
investigations, audits and program reviews, assists other OIG
component offices with their operational activities and provides
legal adv    and assistance to the Inspector Ge      and the other
OIG comIDnents.
During the fiscal year, the off        ned 36 cases and closed 41
cases. In add ion, 46 assistance cases (      support    other OIG
operations) were opened and 11 assistance cases were closed. As
of September 3D, 1981, there were 54 Office of Special Project
cases p::nding and 58 assistance cases pending.
The office is responsible for handling IG subpoenas and other legal
processes, all civil re rrals, and is primarily responsible for
commenting on and developing legislat    and r ulatory initiatives
for the Off e     Inspector Gene      During fiscal   ar 1981, we
issued 66 subIDenas and made 50 civil re        to the Department


                                          40
of Justice and to U.S. Attorney's offices. These civil referrals
covered cases arising from investigations, audits and inspections
conducted by the various OIG components, as well as by Special
projects, and represented a total potential recovery in excess of
$5.8 million dollars. Twenty-seven (27) of these civil actions
resulted in $1.3 milion dollars in restitutions, judgments, and
settlements (Figure 15). As of the close of fiscal year 1981, 89
civil referrals were still pending with the Department of Justice
and U.S. Attorneys (Figure 16). During the fiscal year, we also
provided comments or testimony on approximately 32 legislative and
regulatory initiatives.


                                    Civil Recoveries
                       October I, 1980 through September 30, 1981
                    AlTOunt          Nurrber of           Arrount           Arrount
Tyfe            4/1/79-9/30/80    10/1/80-9/30/81     10/1/80-9/30/81   4/1/79-9/30/81
Judgments        $    753,695             6             $1,067,211       $1,820,906
Settlements           301,401            12                220,950          522,351
Restitutions         178,950              9                 23,787          202,737
'IDTAL           $1,234,046              27             $1,311,948       $2,545,994

                                       Figure 15


                          Action Status of Civil Referrals
                     October 1, 1980 through September 30, 1981
    Referrals                                                             Referrals
  pending Action          Referrals Made            Action Taken        Pending Action
     9/30/80              10/1/80-9/30/81          10/1/80-9/30/81         9/30/81
          52*                     50                      14                 89
  * The report ending 9/30/80 did not accurately state the number
       of civil referrals pending action as of that date.

                                       Figure 16




                                          41
The following are selected highlights of Office                    Special          ects
ef       of the past fiscal

                        The Office      Special Projects has played
                         Off     of Ins ctor Ge            fort to
improve and increase the     ency's use of the      rment/suspension
process. The    f    reviews all     ba                    eommenda ions
for          for action         ney off                     has also
ma    su tantial eontr        ns to improvi
proces    th   GS and Government-wi
revis        GSA regulat ns, devel
providing                test
wo                         pro
of                         ns process

                                             The        has
                                             OIG com
                                               obta   recove
                                                  Iden ified
                                                      and h


                                                                                      s



entitled.

                             of                                                    sed-


                   n-Government
                 suIted in recove

Suret           new proc ure was d                          it         to
pr             Government    inst loss                and pe                  bonds
by prov     i       the d squalif ica             f    :p:>ra te                 ua
suret       and facto     compan es wh            have acted

     E

        th s p o r t                        off                     n
               sored                                      on      and
Eff i ney      The Counc                           ct             recomme
t  ns of the Inspectors Gene                  th thei             i npu
establishes the paramete                idual      ects and des nates
the Ins pector General of f          o work on ea ch proj ct, names
of      to eha i reach              and def nes the ext nt each off e
w        involved

F ur          hows each pr   ct     nd the ext          to wh                o f
is curren        aking part.




                                       42
                    Interagency Projects

Project Name                               Participation

Construction Contract Change Order             Full

Review of Unliquidated Obligations            Limited

Review of Payroll Operations                 Limited

Government Furnished Material/Property        Limi ted

Imprest Fund                                   Full

Government-wide ADP Systems                  Limited

Computer Security                            Limited

Computer Matching Project                    Limited

Government Wide 8(a) Eligibility             Limited

Procurement Suspensions and Debarments       Limited


                            Figure 17




                                43
APPENDICES
                                                              APPENDIX I


                            REPORT REGISTER
                             AUDIT REPORTS

                                                                 Date of
Number                                   Title                   Report _
                                              ----
Internal Audits

4E-I0376-00-24        $4.8 Million Has Been/Will Be
                      Wasted Over 10 Years Because a New
                      U.S. Courthouse Has Been and Will
                      Remain Vacant                             04/01/81

3B-00623-11-11        Letter Report - Watch Contractors
                      Required to Purchase Government
                      Manufactured Bearings That They
                      Cannot Use                                04/03/81
4G-I0564-06-06        Overpayments to a Lessor Should
                      Be Recovered                              04/07/81
74-8120-044(b)-F(2}   Short Form Second Followup -
                      Problems in the Administration of
                      the Lasker-Goldman Construction
                      Management Contract, Federal Law
                      Enforcement Training Center, Glynco,
                      Georgia                                   04/08/81

3K-00611-05-05-P      Letter Report - Region 5 Federal
                      Supp   Service Laboratory,
                      Federal Supply Service                    04/09/81

5F-I0258-10-28        Computer Securi  and Firesafety
                      Pract es Need to Be Improved in
                      Region 10                                04/09/81
4E-I0571-02-02        Government Real Property in
                      Puerto Rico Has Been Improperly
                      Appropriated for Private Use              04/09/81

34-9145-033-F(I)      Short Form Followup - Baltimore
                      Interagency Motor Pool Operations         04/15/81

3U-00227-03-03-F(1)   Short Form Followup - Need to
                      Improve Management     the Harrisburg
                      Interagency Motor Pool                   04/15/81

5D-I0269-06-06        Letter Report - Except for Repair
                      and Alteration Work, Obligations
                      Were Properly Recorded at Fiscal
                      Yearend                                  04/15/81

3U-l0410-06-06        Letter     rt - Improved Controls
                      Over Procurement of     ir Services
                      Are Needed at the Wich ta, Kansas,
                      Motor Pool                               04/16/81
                                   44
                                                                      Date of
Number                                           Title                Report

3N-002l4-ll-ll                opportunities Exist for Improving
                              the Award and Administration of
                              Photographic Supply Multiple Award
                              Schedule Contracts                     04/17/81

4D-0 0 27 4-11-11             Building Management Operations at
                              the Mall Field Office Could Be
                              Improved                               04/22/81

4G-00504-00-ll                Significant Improvements Need
                              to Be Made in Administering GSA
                              Controlled Space, Central Office
                              and the National Capital Region        04/22/81

4E-l0825-0l-0l                Letter Report - Firm Commitment.s
                              Needed Prior to the Expenditure of
                              Funds for the Proposed Boston
                              Federal Building                       04/22/81

5Y-00530-07-07                Letter Report - GSA's Assistance
                              to the Federal Emergency Management
                              Administration (FEMA) Relative to
                              the Cuban Refugee Emergency            04/23/81

3U-00608-03-03                The Need to Improve Management
                              and Inventory Controls at the
                              Pittsburgh Interagency Motor Pool      04/23/81

3 5- 8 27 7 -1 0 0- F ( 2 )   Short Form Followup - Need to
                              Implement Controls to Protect,
                              utilize, and Maximize Return on
                              Government Assets                      04/24/81

4D-0 0.27 6-11-11             Significant Economies Can Be
                              Achieved Through Improved
                              Administration of Group Force
                              Projects                               04/24/81

4E-l04l9-ll-ll                Letter Report - Mosler Safe Company
                              Value Engineering Change Proposal
                              Should Not Be Approved                 04/24/81

5F-00496-00-28                Foreign Gifts Inventory System         04/26/81

4D-l0827-07-07                Letter Report - Unauthorized Vending
                              in the Fritz G. Lanham Federal
                              Building, Fort Worth, Texas            04/27/81

4E-00079.-0 4-04              Contract Defects Were Not Corrected
                              Before Final Payment Was Approved
                              and Projects Were Advertised without
                              Adequate Design Review                 04/28/81


                                         45
                                                                Date of
Number                                   Title                  Report
                                         -------------------
3G-000S4-09-09-F(l)   Short Form Fol1owup - Operational
                      Improvements Needed at the Stockton
                      Supply Distribution Facility             04/29/81
SO-00294-04-04        Administrative Approving Officials
                      Needed to Perform More Detailed
                      Reviews of Travel Vouchers               04/29/81
3U-00648-04-04        Underinflated Tires and Erratic
                      Service and Maintenance Scheduling
                      Impacted Adversely on Region 4 1 s
                      Vehicle Fuel Conservation Program        04/29/81
SL-lOS24-06~06        Procedural and Control Weaknesses
                      Have Caused Inefficiencies in Supply
                      Room Operations                          04/29/81

4E-IOS60-04-04        CMD, Region 4, Does Not Control
                      Its Engineering Drawings                 04/29/81

SD-00460-02-02        Internal Controls Over Federal
                      Buildings Fund Payments Need To
                      Be Strengthened, Region 2                04/30/81

SD-00669-0S-05        Time and Attendance Recordkeeping
                      and Reporting Could Be Improved          04/30/81
32-94l2-055-F(1)      Short Form Followup - Packaging
                      and Packing Supplies                     OS/01/81
3C-00209-0S-0S-F(1)   Short Form Fol1owup - More ~imely
                      Disposal of Personal Property Is
                      Needed                                   OS/01/81

5D-l0273-l0-l0        Letter Report - Review of Obligations    05/01/81
49-9336-044-F(i)      Short Form Followup - Loss    Control
                      Over Federally-Owned Surplus Property
                      Managed by the Mississ   i State
                      Agency for Surplus Property              05/05/81

3J-00032-04-04-F(l)   Short Form    lowup - South Carolina
                      State Agency for Surplus Property        05/05/81

5D-10271-08-08        Letter Report - Review of Obligations,
                      Section 1311, Public Law 663, Fiscal
                      Year 1980, Region 8                      05/0   81
6J-00484-00-21-F(I)   Short Form Followup - Donation of
                      of      Ius Real        : Compliance
                      Inspect     Program                      05/07/81



                                 46
                                                                Date of
Number                                   Title                  Report
5F-00086-00-22        Audit Participation in Systems
                      Development of NARS-7, National
                      Audiovisual Center Distribution/
                      Information System, Phase I              05/08/81
5F-00528-07-07        Numerous Items of Expensive
                      Equipment Are Vulnerable to Theft,
                      Region 7                                 05/08/81
6G-l0303-00-2l-F(l)   Followup - Ineligible Recipient of
                      SES Bonus                                05/08/81
5D-00672-02-02        Controls Over Payments for Contract
                      Labor at the Raritan Depot Need To Be
                      Improved                                 05/12/81

6G-l0836-00-2l        SES Performance Objectives and
                      Appraisals Were Not Always Completed
                      on a Timely Basis                        05/12/81

3E-90006-09-09A-F(l) Followup - Controls Over Federally
                     Owned Surplus Property in California
                     Need To Be Strengthened, Region 9         05/13/81
4G-00691-04-04        Procedures of the Appraisal Staff
                      Do Not Control the Appraisal Process     05/15/81
3U-00606-02-02        GSA Is Susceptible to Overcharges
                      for Leased Motor Pool Vehicles,
                      Region 2                                 05/18/81

3U-00648-05-05        Actions Taken to Implement the
                      Vehicle Fuels Energy Conservation
                      Program Are Not Enough to Tap
                      Potential Savings                        05/19/81
30-00767-06-06        Government Expenditures Can Be
                      Reduced by Improving the Efficiency
                      of the Material Returns Program          05/19/81
4D-00687-03-03        Tighter Control is Needed Over
                      Procurements at the East Philadelphia,
                      Pennsylvania, Buildings Manager Field
                      Office                                   OS/20/81
37-8336-088-F(2)      Short Form Second Followup - Sales
                      Branch Operations, Region 8              OS/21/81
3G-002l9-05-05-F(1)   Short Form Followup - Inside
                      Deliveries to Self-Service Stores
                      Should Be Discontinued                   OS/21/81


                                 47
                                                                Date of
Number                                    Title                 Report

3C-00032-06-06        Fundamental Problems in the Personal
                      Property Donation Program in Region 6    OS/21/81

4G-00504-02-02        GSA Is Not Effectively Managing
                      Its Space Inventory, Region 2            OS/21/81
5F-50052-00-22-F(3)   Third Followup - Audits of INFONE'I',
                      RAMUS, and Advanced Record System
                      Data Security                            OS/26/81

5D-00154-06-06-F(1)   Followup - Significant Internal
                      Control Weaknesses Can Cause Losses
                      to the General Supply Fund               OS/26/81
4G-00688-06-06        Timely Lease Actions Would Improve
                      the Effectiveness of the Region 6
                      Leasing Program                          OS/27/81
4E-00271-04-04        Cost Reduction Efforts Contributed
                      to Design Problems and Delays on the
                      Miami Courthouse Annex Project           OS/28/81

3U-00607-01-01        Letter Report - Providence Motor
                      Pool Has to Some Degree the Same
                      Problems as the Portland Motor Pool      OS/29/81
52-9183-088-F(1)      Short Form Followup - Improvements
                      Needed in MotorlPool Vendor
                      Payments, Region 8                       06/01/81
32-9326-033-F(1)      Short Form Followup -  Hand-Held
                      Calculator Procurements Can Be
                      Improved                                 06/01/81

74-8265-044-F(l)      Short Form Fol1owup - Construction
                      Management Project, Ft. Lauderdale
                      Federal Building and Courthouse,
                      Region 4                                 06/01/81

74-9537-044-F(1)      Short Form Fol1owup - Audit Evaluation
                      Not Requested Prior to Negotiating
                      Construction Change Orders and 8(a)
                      Construction Contracts Exceeding
                      $100,000                                 06/01/81

4G-00688-10-10        Leases Awarded by Acquisition Branch
                      Lacked Documentation                     06/02/81




                                 48
                                                               Date of
Number                                   Title                 Report

52-9182-044-F(2)      Second Followup - One Recommendation
                      Not Implemented - Although Improve-
                      ment Has Been Made, Public Buildings
                      Service and Finance Continue to Have
                      Problems Administering Functions
                      Associated With the Federal Buildings
                      Fund, Region 4                          06/03/81
73-9323-033-F(1)      Followup - Need to Consider Closing
                      the Central Support Field Office
                      Bladensburg, Maryland                   06/03/81

30-00215-09-09-F(1)   Short Form Followup - Some
                      Improvement$~Needed in Processing
                      Inventory Adjustments, Region 9         06/03/81

3V-00229-09-09        Transportation Costs Can Be Reduced
                      by Thousands of Dollars, Region 9       06/03/81

30-10854-06-06        Letter Report - Under Existing Budget
                      Restraints, the Region 6 Federal
                      Supply Service Work-In-Process
                      Reduction Plan Was in the Best
                      Interests of the Government             06/05/81

57-9351-077-F(1)       Short Form Followup - Need to
                      Strengthen Controls Over Office of
                      'Administration (OAD) Procurements      06/05/81

4M-00681-09-09        Procedures for Awarding and
                      Administering Contracts for Telephone
                      Services Can Be Improved                06/08/81

34-9405-066-F(1)      Short Form Followup - Improved Docu-
                      mentation Needed at the Kansas City,
                      Missouri, Motor Pool                    06/08/81

4D-00452-03-03(b)-F(1) Short Form Followup - The Need for
                     Tighter Control Over Procurements at
                     the Huntington, West Virginia, Field
                     Office                                   06/08/81

51-9184-055-F(l)      Followup - Two Audit Recommendations
                      Not Implemented - Audit of NEAR
                      Payments                                06/09/81

3N-I0214-06-06        Improved Management of the Small
                      Purchases Program Could Result in
                      Efficiencies and Economies              06/10/81




                                 49
                                                                  Date of
Number                                  Title                     Report

54-8219-100-F(1)        Followup - Three Audit Recommendations
                        Not Implemented Regarding Payments and
                        Internal Controls of the FBF/AS,
                        Region 10                                06/10/81

70-9178-022-F(1)        Short Form Fo11owup - Hazardous
                        Health Conditions in New York City,
                        GSA, Region 2                             06/10/81

5Y-00530-05-22          Participation in the Cuban Refugee
                        Emergency Lacked Adequate Procedures
                        and Direction                            06/11/81

3C-00624-09-09          Controls Over the Transfer and
                        Donation of Personal Property Can
                        Be Improved, Federal Property
                        Resources Service, Region 9              06/15/81

4G-00080-06-06          Letter Report - Procurements of
                        Repairs and Alterations in Leased
                        Space Generally Complied Wi th
                        Prescribed Procedures                    06/16/81

73-9324-099-C-F(1)      Short Form Followup - Procurement
                        Controls Should Be Strengthened at
                        the Honolulu Field Office, Buildings
                        Management Division, Public Buildings
                        Service, Region 9                        06/17/81

4M-00269-09-09-F(1)     Short Form Followup - Improvements
                        Needed in the Equipment Inventory
                        Operations of the Local Telephone
                        Service Program, Region 9                06/17/81

77-8417-099-F(1)        Followup - Initial Tenant Alterations
                        in Leased Space, 215 Fremont Street,
                        San Francisco, California                06/17/81

4E-I0878-11-11          Potential Major A-E Deficiency
                        Claim Should Be Immediately Pursued      06/17/81

3E-90005-09-09-B-F(l)     Followup - Controls Over Federally
                        Owned Surplus Property in Arizona
                        Need To Be Strengthened, Region 9        06/17/81

3N-I0217-10-10          Economies Possible Through Stream-
                        lining of Small Purchase Procedures      06/18/81

4D-I0225-05-05          Improved Procurement Procedures Are
                        Needed at the Jeffersonville Field
                        Office                                   06/18/81



                                   50
                                                               Date of
Number                               Title                     Report

30-10808-02-02      Letter Report - The San Juan Self-
                    Service Store Physical Inventory
                    Was Adequately Conducted                  06/19/81

70-9349-033-F(l)    Short Form Followup - Improvement
                    Needed in Administration of Delay
                    Claims Under Term Contracts for
                    Space Planning Services, Special
                    Projects Division                         06/19/81

57-8331-113-F(3)    Short Form Fo1lowup - Review of
                    Overtime Payments                         06/19/81

54-9289-055-F( 1)   Short Form Followup - Improvements
                    in Procedures and Controls Over
                    Travel Claim Payments Are Needed          06/22/81

3J-I0759-06-06      Letter Report - Contracting Officer
                    Warrant Program Has Been Properly
                    Implemented in Region 6 Federal
                    Supply Service                            06/22/81

4E-00692-11-11      Administration of Construction
                    Contracts Could Be Improved               06/23/81

5Y-00530-04-04      The Cuban Refugee Emergency Showed
                    That GSA's Accounting System Could
                    Not Provide the Current Status of
                    Funds Expended in Support of the
                    Emergency and to Support FEMA,
                    GSA Often Validated FEMA Purchases        06/23/81

4G-00689-10-10      Improvements Needed for Leased Space
                    Rep a ir and Al terat ion Procurements,
                    Region 10                                 06/24/81

4G-00527-02-02      Actions Taken by the Public Buildings
                    Service Resulted in Significant
                    Excessive Costs for Leased Office and
                    Garage Space in New York City             06/24/81

3U-00648-09-09      More Can Be Done to Promote Energy
                    Conservation and Reduce Parking
                    Costs, Region 9                           06/24/81

34-9401-022-F(1)    Short Form Followup -  New York City
                    Interagency Motor Pool Is Generally
                    Being Operated Efficiently and
                    Effect ively                              06/24/81




                                51
                                                               Date of
Number                                Title                    Report
5P-00467-04-04        GSA Can Achieve Substantial Cost
                      Savings by Eliminating One Federal
                      Information Center in Florida and
                      Using FTS Circuits to Reduce Dependence
                      on Foreign Exchange Service             06/25/81
35-9415-022-F(1)      Short Form Followup - Newark,
                      New Jersey, Self-Service Store          06/26/81
4G-00455-11-11        Lease Escalation Negotiated for
                      $3.3 Million in Excess of Independent
                      Cost Projections, Nassif Building,
                      Washington, D.C.                        06/29/81

4L-60051-00-22-F(1)   Acquisition of Consultant and
                      Analyst Services from Subcontractors
                      Through INFONET                         06/30181
3B-I0868-11-11        The William Langer Plant Operation
                      Does Not. Sat.isfy the Objectives of
                      the Jewel Bearing Program               06/30/81

6J-I0882-00-21        Proposed Lease No. GS-09B-80234
                      with Vanguard Developers Not in
                      Government's Best Interest              06/30/81

5D-00668-11-11        Improved Controls Needed Over the
                      Processing of Federal Buildings Fund
                      Payments                                06/30/81
5F-00528-02-02        Potential Misuse of Funds Due to
                      Inadequate Controls Over Data
                      Entry Equipment, Region 2               07/06/81

41-00693-11-11        Significant Improvements Can Be
                      Achieved in the Procurement of
                      Custodial and Protection Services
                      By Establishing Interagency
                      Guidelines With the Small Business
                      Administration                          07/06/81
35-9416-033-F(1)      Followup - Self-Service St.ore
                      Operations at the New Executive
                      Office Building Could Be Improved       07/09/81

5D-00088-09-09-F(1)   Followup - Need to Improve
                      Yearend Reporting of Obligations        07/09/81
30-00617-08-08-P      Region 8 Depot Operations Could Be
                      Improved By Eliminating Hazardous
                      Conditions and Reducing Document
                      Processing Time                         07/13/81


                                 52
                                                               Date of
Number                                Title                    Report
3N-I0215-05-05        Streamlining Small purchasing Could
                      Save Money and Time                     07/13/81
3U-00212-04-04        The Transportation and Public
                      Utilities Service Needs to Determine
                      if the Number of Vehicles Assigned to
                      Airport Dispatch Is Cost Effective      07/14/81
5D-00088-04-04-F(1)   Short Form Followup - Obligations
                      Under Section 1311, Public Law 663,
                      Region 4                                07/15/81
4G-00157-02-02-F(1)   Short Form Followup - Over
                      $500,000 Paid for Unused Space
                      Under a Sublease Soon to Expire         07/15/81
4D-I0224-04-04        Procurement; Accounting and Energy
                      Are Problems That the Buildings
                      Manager, Columbia, South Carolina,
                      Needs to Correct                        07/15/81
5Y-00530-03-03        The General Services Administration
                      (GSA's), Region 3, Involvement
                      in the Cuban Refugee Emergency          07/16/81

4E-00723-02-02        Irregularities Concerning the
                      Renovations of the Old San Juall
                      courthouse                              07/21/81
5T-00288-00-11        Several Improvements Can Be Made in
                      the Management of the Washington
                      National Records Center                 07/23/81
4E-00272-02-02        Improvements Are Needed in the
                      Roofing Consultant Inspection
                      Program, Region 2                       07/24/81

30-12031-06-06        Letter Report - The Kansas City
                      Self-Service Store Was Not Properly
                      Prepared for the Physical Inventory
                      Count                                   07/24/81
3C-00209-02-02        Controls Covering Sales of Personal
                      Property Need to be Improved,
                      Region 2                                07/27/81

3U-I0554-04-04-F(1}   Letter Report - The Jacksonville,
                      Florida Motor Pool Was Well Managed     07/   /81

3U-00213-07-07-P      Letter Report - Audit of Motor
                      Equipment Management                    07/28/81



                                 53
                                                                Date of
Number                                Title                     Report

3C-00372-06-06-F(I)   Short Form Followup - Administration
                      of Region 6 Federal Property Resources
                      Service Personal Property Sales Needs
                      Improvement                              07/28/81

3C-00372-0S-0S-F(l)   Short Form Followup - Need for
                      Improvements in Controls Over Reports
                      of Personal Property Available for
                      Sale, Federal Property Resources
                      Service, Region S                        07/28/81

3K-102l9-02-02-P      Letter Report - Region 2 Quality
                      Assurance Branch Is Providing
                      Adequate Services                        07/28/81
49-9337-113-F(1)      Letter Report - Administration
                      of the Surplus Personal Property
                      Program Can Be Improved, National
                      Capital Region                           07/29/81

3U-00224-10-10-F(1)   Short Form Followup - Improved
                      Controls Needed at Interagency
                      Motor Pools                              07/29/81

4E-0027S-06-06-F(1)   Short Form Followup - Regional
                      Construction Contract Award and
                      Administration Procedures Need
                      Improvement                              07/29/81

3U-0064S-ll-ll        Inability to Obtain Gasohol Prevents
                      Participation in Nationwide Gasohol
                      Program, National Capital Region         07/29/81

ST-10503-0S-08        Letter Report - Review of the
                      Operations of the Federal Archives
                      and Records Center Located in
                      Building 48, Denver Federal Center,
                      Denver, Colorado, Region 8               07/29/81

73-9324-066-F(1)      Short Form Followup - Controls at
                      the Kansas City South Buildings
                      Management Office Need to Be
                      Strengthened to Prevent O~erpayments
                      to Contractors                           07/30/81

4D-1023l-ll-l1        Building Management Operations at
                      the Justice Field Office Could Be
                      Impr.oved                                07/30/81
5D-00088-0l-0l-F(l)   Letter Followup Report - Review
                      of Yearend Obligations, Section 1311,
                      Public Law 663, Region 1                 07/31/81


                                 54
                                                                Date of
Number                                Title                     Report
3U-00228-0l-0l-F(l)   Letter Followup Report -
                      Questionable Efficiency of the
                      Portland, Maine, Interagency
                      Motor Pool                               07/31/81
4M-00270-ll-ll        The Competitive Switching Program        07/31/81

4D-00687-04-04-F(1)   Short Form Followup - Jackson
                      Mississippi, Buildings Management
                      Office                                   08/04/81

77-92l8-088-F(1)      Short Form Followup - Improvements
                      Needed in Lease Awards and
                      Administrations in Region 8              D8/05/8l
77-9224-088-F(1)      Short Form Followup - Improvements
                      Needed in Approval of Repairs,
                      Alterations and Improvements in
                      Leased Space in Region 8                 08/05/81

4D-00687-l0-l0-F(l)   Short Form Followup - Public Buildings
                      Service Field Office Needs to Comply
                      With Procurement Requirements            08/05/81
4G-OO~88-07-07        Supervisory Reviews of Lease
                      Contract Files Are Vitally Needed        08/05/81

4D-00452-06-06-F(1)   Short Form Followup - Improved
                      Controls Are Needed at the Kansas
                      City North Buildings Management
                      Office to Assure That Work
                      Contracted for Is Received               08/06/81

4G-00688-0l-01        Space Management Division Audit
                      Shows Inadequate Management
                      Control    the Award and
                      Admin tration of Region 1 Leases         08/06/81

3J-I0758-05-05        Letter Report - Review of Mainte-
                      nance of Conveyor Belt System            08/06/81

4D-00687-08-08(a)-F(1) Short Form Followup - Procurement
                     of Repair and Alteration Work,
                     Public Buildings Service, Buildings
                     Management Field Office, Fargo,
                     North Dakota                              08/07/81
4D-00687-08-08(b)-F(1) Short Form Followup - Procurement
                     of Repair and Alteration Work,
                     Public Buildings Service, Buildings
                     Management Field Office, Missoula,
                     Montana                                   08/07/81


                                 55
                                                               Date of
Number                                Title                    Report

4D-00274-08-08-F(1)   Short Form Followup - Procurement
                      of Repair and Alteration Work,
                      Public Buildings Service, Buildings
                      Management Field Office, Aberdeen,
                      South Dakota                            08/10/81

3C-00327-10-10-F(1)   Short Form Followup - Implementation
                      of Controls to Ensure Authorized Use
                      and Disposal of Surplus Property
                      Needed Within the State of Oregon       08/11/81

4G-I04l8-06-06        Conscientious Lease Administration
                      Could Have Resulted in Substantial
                      Cost Savings to the Government          08/11/~1

4G-00504-06-06-F(1)   Short Form Followup - Better
                      Utilization of Space in Two St. Louis
                      Buildings Could Result in Savings
                      to the Government                       08/12/81

75-9521-099-F(1)      Followup - Need for Improvements
                      in Inventory Controls Over Weapons
                      and Badges, Federal Protective
                      Service Division, Region 9              08/13/81
4G-00504-04-04-F(1)   Short Form Followup - Vacant Space,
                      Region 4                                08/13/81

4F-00083-04-04-F(1)   Short Form Followup - Roofing
                      Inspection Program, Region 4            08/18/81

4F-I0250-07-07        Federal Protective Service Division
                      Needs to Strengthen Controls Over
                      Firearms, Operating and Security
                      Systems Equipment, and Confiscated
                      Weapons                                 08/18/81

3E-90004-07-07-F(1)   Short Form Followup - Oklahoma
                      State Agency for Surplus Property
                      Should Recall Dangerous Military
                      Vehicles                                08/19/81

6B-00536-00-21        Opportunities Exist to Significantly
                      Improve GSA's Small Order Supply
                      Distribution System (Self-Service
                      Stores)                                 08/19/81




                                 56
                                                                 Date of
Number                                  Title                    Report
30-1020S-04-04          Staffing at the Atlanta, Georgia,
                        Self-Service Store Should Be
                        Reduced                                 08/19/81
4E-r0252-07-07          Opportunities for Improving the
                        Roof Repair Program                     08/19/81

5E-00094-06-06          Letter Report - Review of Payments
                        to Vendors for Warehouse Items,
                        Phase II                                08/20/81
3C-00207-10-10-F(l)     Short Form Followup - Controls to
                        Insure Authorized Use and Disposal
                        of Surplus Property Within the
                        State of Washington Need to Be'
                        Implemented                             08/20/81

4E-0071S-02-02          The Contract to Renovate the
                        Military Ocean Terminal, Bayonne,
                        New Jersey, Was Neither Properly
                        Awarded Nor Adequately Administered     08/20/81

5B-90046-09-09-F(2)     Short Form Second Followup -
                        Procurement and Administration
                        of Vehicle Repairs Need
                        Improvement                             08/21/81
3C-00209-04-04-F(1)     One Recommendation Not Implemented,
                        Reviews of Personal Property
                        Document Log (GSA Form 3117) for
                        Status of Outstanding Documents
                        Are Not Performed                       08/21/81

4D-0.0452-10-10-F( 1)   Short Form Followup - Faulty
                        Procurement Practices in Public
                        Buildings Service Field Office
                        Require Corrective Action               08/21/81

4H-00120-11-11-F(1)     Followup - Kuwait Project,
                        International Projects Office,
                        Public Buildings Service                08/24/81

3U-00535-0S-0S-F(1)     Followup - Need for Improvements
                        in Motor Pool Operations at Bismarck,
                        North Dakota, Region 8                  08/24/81

3N-I0207-0S-08          Letter Report - Advertised Procure-
                        ments, Federal Supply Service,
                        Region S                                08/24/81




                                   57
                                                                Date of
Number                                  Title                   Report

5A-00459-10-10-F(1)     Short Form Followup - Finance
                        Division Obligation ,Reviews Should
                        Be Improved                            08/25/81
3U-I0412-09-09          Some Operations of the Holbrook
                        Interagency Motor Pool Can Be
                        Improved                               08/25/81

74-8200-055-F(1)        Short Form Followup- Procedures for
                        Administration of Repair and
                        Alterations Contract Changes           08/26/81

5D-80042-04-04-F(4)     Short Form Followup - Processing
                        Vouchers for Payment, Region 4         08/26/81

3U-90021-04-04-F(2)     Short Form Followup - Motor Pool,
                        Raleigh, North Carolina, Region 4      08/26/81

4M-00268-07-07          Violations of GSA Standards of
                        Conduct by Management Officials
                        Require Immediate Action               08/26/81
30-10413-04-04          Continued Management Surveillance
                        Is Needed to Monitor Internal
                        Controls at the Self-Service Store,
                        Memphis, Tennessee                     08/26/81
4D-00452-02-02-A-F(1)     Short Form Followup - Procurement
                        Controls Should Be Improved at JFK
                        Airport, PBS Buildings Management
                        Field Office                           08/27/81

3U-00648-08-0&-F(1)     Short Form Followup - Vehicle Fuel
                        Conservation Programs Not Fully
                        Implemented in Region 8                08/27/81

4D-I0221-01-01          Letter Report - Procurement Controls
                        Satisfactory at South Shore Public
                        Buildings Service Field Office         08/27/81
5D-I0265-02-02          Obligations Recorded in the Federal
                        Buildings Fund Are Overstated by
                        $2.2 Million as of the Close of
                        Fiscal Year 1980                       08/28/81

30-10401-07-07          Security Should Be Tightened at the
                        Albuquerque Self-Service Store,
                        Region 7                               08/31/81




                                   58
                                                               Date of
Number                                  Title                  Report

5D-l0268-05-05        The Accuracy of Yearend Obligations
                      Shows No Improvement After Four
                      Years of Audit Efforts                  09/01/81

34-933l-044-F(1)      Short Form Followup - Audit of Motor
                      Pool, Tampa, Florida, Region 4          09/03/81

3U-00304-04-04-F(1)   Short Form Followup - Audit of Motor
                      Pool, Mobile, Alabama, Region 4         09/03/81

5E-00324-07-07-F(1)   Short Form Followup - The Public
                      Buildings Service Should Transfer
                      Custody of Excess Office Furniture      09/03/81
5E-00092-07-07-F(1)   Short Form Followup - Need for
                      Closer Adherence to Federal Travel
                      Regulations                             09/09/81
5E-0009l-0l-0l-F(1)   Short Form Followup - Region 1 Is
                      Improperly Authorizing and
                      Controlling Overtime                    09/14/81

3C-00032-02-02        Donees in New York State Are Not
                      Complying With the Federal Personal
                      Property Donation Program Regulations   09/15/81
5D-I0743-0l-01        Use of the Scheduled Airlines Traffic
                      Office (SATO) Will Facilitate the
                      Processing of Government Transportation
                      Requests in Region 1                    09/15/81

41-00621-01-01        Letter Report - Energy Usage and
                      Conservation Program Is Effective in
                      Region 1                                09/16/81
3C-00626-l0-l0        Improvements Are Needed to Provide
                      More Timely Property Rehabilitation
                      Contract Coverage and Effective
                      Administration                          09/16/81

3U-104ll-07-07        Need to Eliminate Excess Vehicles
                      At Farmington Interagency Motor Pool    09/16/81

52-9l83-l00-F(1)      Short Form Followup - Procurement
                      of Commercial Repair Services by
                      Motor Pools Need Improvement for
                      Better Economies and Controls           09/18/81

3C-00209-09-09-F(1)   Followup - Improvements Needed
                      in Sales Branch Control Procedures,
                      Federal Property Resources Service,
                      Region 9                                09/18/81


                                   59
                                                             Date of
Number                                  Tit                  Report

6B-00546-00-2l-F(1)   Short Form Followup - Questionable
                      Procurement of Coal for Washington
                      Area 1979-1980 Season                 09/22/Sl
3U-l0409-04-04        A Cost Benefit Analysis Is Needed
                      Before a Repair Facility Is
                      Reestablished at the Columbia,
                      South Carolina, Motor Pool            09/22/81

5B-00667-l1-1l        Opportunities Exist for Improving
                      the Financial Condition of the
                      Working Capital Fund                  09/23/81
41-10244-04-04        The Region 4 Federal Protective
                      Service Division Security System
                      Program Lacked Direction              09/23/81

3N-l0207-06-06        The Formal Advertised Procurement
                      Process Would Be Improved With
                      Increased Emphasis on Internal
                      Controls and Greater Adherence to
                      Procurement Procedures                09/24/81

4D-I0228-0S-08        Denver Federal Center Buildings
                      Management Field Office Needs
                      to Improve Operating Practices        09/24/81

3B-I021S-06-06-P      Inadequate Internal Controls Allow
                      Conditions for Improper Actions
                      and Inefficiencies in Inventory
                      Management                            09/28/81

30-11073-01-01        Letter Report - Boston Self-Service
                      Store Inventory Was Satisfactory      09/28/81

4M-I0460-10-10        Letter Report - Competitive
                      Switchboard Procurement for
                      Pocatello, Idaho, and Anchorage,
                      Alaska, Were Generally in
                      Compliance With Federal Procure-
                      ment Regulations                      09/30/81

SF-00772-00-2S        Stockpile Inventory and Billing
                      Systems                               09/30/81

SD-10924-10-l0        Letter Report - Control Over
                      Variable Contract Payments Are
                      Adequate                              09/30/S1




                                   60
                           REPORT REGISTER
                            AUDIT REPORTS

                                                               Date of
Number                                 Title                   Report

Contract Audits

2G-00b72-00-02       Price Reduction and Defective Pricing,
                     Litton Business Systems, Inc.,
                     Monroe Division, Contract No.
                     GS-00S-66602                             04/01/81

lO-10329-ll-ll-D      Evaluation of FFP Proposal,
                     'Tippetts-Abbetts-McCarthy-Stratton      04/02/81

lC-00333-03-02       Evaluation of Credit Change Order
                     Proposal, Wolff & Munier, Inc.,
                     subcontr,act?lr to Joint Venture
                     of United States Steel Corp.,
                     American Bridge Division, Owens-
                     Corning Fiberglas Corp. and
                     Wolff & Munier, Inc., Contract No.
                     GS-00B-02839                             04/02/81

2S-0 026 2-0 0-0 2   Price Reduction and Defective Pricing,
                     Hazeltine Corporation, Contract No.
                     GS-00C-01363                             04/03/81

2A-l0565-08-08       Pre award Evaluation of Pricing
                     Proposals, Terry Manufacturing Co.,
                     Inc., Solicitation Nos.
                     8FCB-B3-DW-D6479 and 8FCB-B3-DW-D6493    04/03/81

2A-l0562-02-02-D     Pre award Evaluation of Pricing
                     Proposal for Continuous Flatfold
                     Paper Tabs, Stanlee Business Form,
                     Inc.                                     04/06/81

2C-00243-00-04       Price Reduction and Defective
                     Pricing, EG&G Ortec, Inc., Contract
                     No. GS-00S-04775                         04/07/81

lD-10188-08-08       Proposal for Change Request No. 57,
                     John Price Associates, Inc., Contract
                     No. GS-08B-7560l                         04/07/81

2B-l0470-00-0l       Pre award Evaluation of Pricing
                     Proposal, Ortho Instruments,
                     Solicitation No. ~CGS-P-36385-N-2-3-8l   04/07/81

lL-l0590-09-09       Lease Escalation Proposal, State
                     Compensation Insurance Fund,
                     Contract No. GS-09B-60764                04/07/81




                                  61
                                                              Date of
Number              ____________________~_'i_t_l_e_______     Report

lA-10805-04-04      Letter Report - Professional Design
                    Fee Proposal Submitted by Luckett &
                    Farley Architects, Engineers, and
                    Construction Managers, Inc.,
                    Contract No. GS-04B-79740(Neg)           04/07/81
lC-10146-04-04      Change Order No. 24, Strom Thurmond
                    Federal Building and U.S. Courthouse,
                    Dawson Construction Company, Contract
                    No. GS-04B-16750                         04/08/81

lL-10689-04-04      Letter Report - Lease Escalation
                    Review, Clyde Ownby and Estate of
                    A. J. King, Jr., Contract No.
                    GS-04B-15902                             04/08/81

2K-00555-ll-ll(b)   Cost Plus Award Fee Contracts,
                    Nationwide Building Maintenance, Inc.,
                    Contract Nos. 05BB4l829(NEG)-1, 2,
                    and 3                                    04/10/81

lA-103l6-ll-ll-R    Evaluation of A-E Pricing Proposal,
                    Anderson Notter/Mariani, A Joint
                    Venture, Contract No. PA1PC005           04/10/81

lC-1053l-ll-ll      Evaluation of Pricing Proposal,
                    Clean America, Inc., Contract No.
                    GS-llB-02351                             04/10/81

2K-10556-03-l0      Cost Plus Award Fee Contract, Nash
                    Janitorial Services, Inc~, Contract
                    No. 03C810340l{Neg)                      04/10/81

2K-10557-0 3-1-0    Cost Plus Award Fee Contract, Nash
                    Janitorial Services, Inc., Contract
                    No. 03C900380l(Neg)-3                    04/10/81

2Q-1058l-00-26-D    Pre award Evaluation of Pricing
                    Proposal, Old Dominion Systems, Inc.,
                    Solicitation No.
                    GSC-CDPCE-K-00006-N-3-7-80               04/10/81
lL-10638-04-04      Letter Report - Lease Escalation
                    Review, Title Building, Atlanta,
                    Georgia, Contract No. GS-04B-08304       04/10/81

lL-1069l-04-04      Letter Report - Lease Escalation
                    Review, Bounds Building Company, Inc.,
                    Contract No. GS-04B-15272                04/10/81




                                  62
                                                               Date of
Number                               Title                     Report

lD-10552-04-04       Claim for Increased Costs,
                     Fort Lauderdale Federal Building and
                     Courthouse, Renel Construction, Inc.,
                     Contract No. GS-04B-16724                04/14/81

2C-00404-00-03       Price Reduction and Defective Pricing,
                     E. I. Dupont De Nemours & Co., Inc.,
                     Wilmington, Delaware, Contract No.
                     GS-00S-44726                             04/15/81
2C-1007l-00-04       Letter Report - Price Reduction,
                     Tami Products, Inc.                      04/15/81
2B-10 OS 0-0 0-0 5   Preaward Evaluation of Price
                     Proposal, American Hospital Supply
                     Corp., American Convertors Division,
                     Solicitation No.
                     FCGS-T-36380-N-9-22-80                   04/15/81

2F-1031S-07-07       Letter Report - Claim for Increased
                     Costs, Apex Rent-A-Car, Inc.,
                     Contract No. GS-07S-04979                04/15/81

lD-l.O 364-11-11     Pricing Proposal, Differing Site
                     Conditions, J. ~. Bateson Company,
                     Inc., Contract No. GS-00B-OI109          04/15/81

2J-10527-03-03       Evaluation of Pricing Proposal
                     for Supplemental Agreement,
                     Liberty Security Service, Inc.,
                     Contract No. GS-03C-90922,
                     Modification No. 1                       04/15/81

lL-10709-09-09       Letter Report - Lease Escalation
                     Proposal, C&C Investments, Lease
                     No. GS-09B-6600                          04/15/81
2B-00572-00-0l       Pre award Evaluation of Pricing
                     Proposal, Nashua Corp., Solicitation
                     No. FCGE-M6-75l47                        04/16/81

2C-10054-00-0l       Price Reduction and Defective Pricing,
                     Genrad Inc., Contract No.
                     GS-00S-86223                             04/16/81

2B-1047l-00-0l       Letter Report - Preaward Evaluation
                     of Pricing Proposal - FSS Schedule
                     66-II-L, MKS Instruments, Inc.,
                     Solicitation No.
                     FCGS-F-90200-N-2-l8-8l                   04/16/81




                                63
                                                             Date of
Number                             Title                     Report

2E-10544-00-03     Evaluation of Progress Payment
                   Submissions, Commuter Vehicles, Inc.,
                   Contract No. GS-00S-15122, Payment
                   Nos.  1 through 4                        04/16/81

2J-10576-03-10     Letter Report - Contract Extension,
                   Nash Janitorial Service, Inc.,
                   Contract No. GS-030-90837                04/16/81

2A-10602-08-08-D   Pre award Evaluation of Price
                   Proposal, Air Logistics Corp.,
                   Solicitation No. 8FCC-TI-S0414           04/17/81

2J-10702-07-07     Letter Report - Preaward Evaluation
                   of Pricing Proposal, American
                   Shamrock, Contract No. GS-07B-20970      04/17/81

1N-10708-08-08     Lease Escalation Proposal,
                   Lincoln Tower Building, Lease No.
                   GS-08B-10732                             04/17/81

2C-00403-00-06     Price Reduction and Defective Pricing
                   Review, Sherwood Medical Industries,
                   St. Louis, Missouri                      04/20/81

1A-00427-04-04     Preaward Evaluation of Pricing
                   Proposal, Stevens & Wilkinson
                   Architects, Engineers, Planners, Inc.,
                   Federal Building and Parking Facility,
                   Savannah, Georgia, Contract No.
                   GS-04B-80722(NEG)                        04/21/81

2B-10062-00-02     Preaward Evaluation of Price
                   Proposal, Philips Electronic
                   Instruments, Inc., Solicitation No.
                   FCGS-G-36381-N-9-24-80                   04/21/81

2B-10468-00-01     Pre award Evaluation of Price
                   Proposal, Farrington Business Systems,
                   Inc., Randolph, Massachusetts            04/21/81

1D-10S43-11-11     Evaluation of Change Order Proposal,
                   Exposaic Industries, Inc., Contract
                   No. GS-03B-78119                         04/21/81

2K-10548-09-09     Diamond Janitorial Service and
                   Supply Co., Inc., Contract No.
                   GS-09B-0-200S, November 18, 1977,
                   through November 17, 1980                04/21/81




                              64
                                                             Date of
Number                            'I'i tIe
                         ,-----,---,----                     Report
lA-10591-04-l1    Preaward Evaluation of A-E Pricing
                  Proposal, Hugh Newell Jacobsen,
                  F.A.I.A., Contract No.
                  P- GS - 0 4B- 8 072 2                     04/22/81
lL-103l4-02-02    Lease Escalation Proposal for
                  1 Lefrak City Plaza, Queens, New York,
                  LSS Leasing Corp., Lease No.
                  GS-02B-15366                              04/23/81

2B-l0483-00-05    Pre award Evaluation of Price Proposal,
                  Herman Miller, Inc., Solicitation No.
                  FCGE-Y5-75159-N-2-l7-81                   04/23/81

lL-10690-04-04    Letter Repor)t - Lease Escalation
                      ew, 1447 Peachtree Street,
                  Atlanta, Georgia, Lease No.
                  GS-04B-15l62                              04/23/81

IB-I0451-08-08    Preaward Evaluation of Pricing
                  Proposal for Term Contract,
                  Davis Partnership, P.C.,
                  Project No. Z-CO-81-002                   04/24/81
lK-10789-11-11    Preaward Evaluation of Lease
                  Alteration Pr ing Proposal,
                  14th and Eye Streets Joint Venture        04/24/81

2G-00073-00-04    Price Reduction, Lanier Business
                  Products, Inco 1 Contract No.
                  GS-00S-66650                              04/27/81
lL-10715-09-09    Letter Report - Real Estate Tax
                  Escalation Proposal, Robert A.
                  McNeil Corp., 4220 Maryland
                  Parkway, Las Vegas, Nevada, Lease
                  No. GS-09B-76592                          04/27/81

lS-10179-06-06    Pre award Evaluation of Pricing
                  Proposal, Denman Phillips
                  Construction Co., Inc.,
                  Waterloo, Iowa, Contract No.
                  GS-06B-03110                              04/27/81

2A-I048   00-05   Preaward Evaluation of Proposed
                  Unit Prices, The Mosl.er Safe
                  Company Solicitation No.
                  FNMC-C2-0016-N-11-18-80                   04/28/81

2N-IO 566-03-03   Change Order Propos , Libe
                  Security Serv   s, Contract No.
                  GS-03C-90104                              04/29/81


                             65
                                                              Date of
Number

2N-·l 0567--03-03     Evaluation of Pricing Proposal of
                      Supplemental Agreement, Ensec
                      Service Corp., Contract No.
                      GS-0~C-90549, Modification No. 1       04/29/81

2A-I0593-08-09        Preaward Evaluation    a Pricing
                      Proposal, Chemonics Industries,
                      Solicitation No. 8FCB-B3-30aOl         04/29/81

2J-I0645-06-06        Pre award Evaluat     of Pricing
                      Proposal, N.C.'I'. Services, Inc.,
                      Kansas City, Missouri, Contract
                      No. GS-06B-70l17-0l                    04/30/81

IT--I0603-11-1l       Termination Settlement Proposal,
                      F.J.R. Builders, Inc., Contract
                      No. GS-03B-88494                       05/04/81

1. V-I0604-11-1l         ue    ineering Change Proposal,
                      Singleton E ctric Co., Inc.,
                      Contract No. GS-03B-78079              05/04/81

2B-10469-00-01        Preaward Evaluation of Price
                            aI, Millipore Corp., Bedford,
                      Massachusetts                          05/05/81

lL-lO 692-04-04       Letter Report - Electr ity
                      Reimbursement for Lease No.
                      GS-04B-l5994                           05/06/81

1 L-I0197-11-11       Lease Escalation Proposal,
                      Southwest Joint Venture, Lease
                      No. GS-03B-60172                       05/07/81

IV-I0837-1    11      Value Engineering Change Proposal,
                      Peter Gordon Company, Contract
                      No. GS-03B-88047                       05/08/81

2B-I0101-00-09        Letter Report - Pre award Evaluation
                      of a Price Proposal, Hewlett-Packard
                      Co., Palo Alto, California, Solie
                      tat ion No. FCGS-X-36383-N-12-4-80     05/11/81

1 L-l 0129-02-02      Lease Esca   ion Proposal, Lodi
                      Merchants Mall, Inc., 1 South Main
                      Street, Lodi, New Jersey, Lease No.
                          2B-18  0                           o      81

2A-I0804-1l     l-D   Evaluation of In ial Pricing
                            aI, Hamil ton Watch Company,
                      Inc., RFP No. WFC-A6-N-4437            o   12/81



                                 66
                                                           Date of
Number           _________________T_i_t_1e                 Report

2B-10822-01-0S   Preaward Evaluation of Price
                 Proposal, Brunswick Corporation,
                 Brunswick Bowling Division,
                 Solicitation No. BO/FS-L-00244           OS/12/8l
1A-10840-04-04   Letter Report - Preaward Price
                 Proposal, Ferebee, Walters and
                 Associates, Charles R. Jonas
                 Federal Building, Contract No.
                 GS-04B-80729                             OS/12/81

1M-00428-04-03   Costs Incurred, Lasker-Goldman
                 Corp., Contract No. GS-04B-16S05
                 for the Period May 11, 1976, to
                 March 6, 1980                            05/13/81
                                                               •
1N-10828-02-02   Letter Report - Pre award Lease
                 Review, CEDC Inc.                        OS/13/81

1L-10848-04-04   Letter Report - Lease Escalation
                 Review, H. K. Enterprises, Inc.,
                 Contract No. GS-04B-15282                OS/13/81

1T-10187-08-08   Settlement Proposal for Contract
                 Termination, Elliott Painting Co.,
                 Contract No. GS-08B-78003                OS/14/81

1L-108S2-04-04   Letter Report - Lease Escalation
                 Review, Commerce Building, Inc.,
                 Contract No. GS-04B-1S616                OS/14/81

1B-10442-07-07   Preaward Evaluation of Supplemental
                 A-E Proposal, Selzer Associates,
                 Inc., Supplemental A-E Services,
                 State of Texas                           OS/18/81

1A-10699-06-06   Preaward Evaluation of Pricing
                 Proposal, Cooper, Carlson, Duy and
                 Ritchie, Inc., Kansas City, Missouri,
                 Contract No. GS-06B-2l0S9                OS/18/81
2C-00S74-00-02   Price Reduction and Defective Pricing,
                 Sharp Electronics Corp., Contract No.
                 GS-00S-92614                             05/19/81

2C-1008S-10-06   Price Reduction and Defective Pricing
                 Review, International Harvester, Inc.,
                 Chicago, Illinois                        OS/19/81

2C-I0090-00-07   Price Reduction Review, Corning Glass
                 Works, Inc., Scientific Products
                 Division, Contract No. GS-00S-86090      OS/19/81


                              67
                                                                  Date of
Number                               'Tit
                     ~--------~----~-----------



1C-1 0308-0 5--0 5   Preaward Evaluation of Change Order
                     Proposal, Norman T. Berglund
                     Construction, Inc., Contract No.
                     GS-05BC-81906, Change Order No. 5003     05/19/81
2B-10493-00-07       Preaward Evaluation of Pr lng
                     Proposal, Abbott Laboratories,
                     Solicitation No. FCGS-P-3685-N-2-3-81    05/19/81

1C-10528-11-05       Evaluation of Change Order Proposal,
                     The J. P. Company, Baltimore,
                     Maryland, Contract No. GS-03B-78047,
                     Change Order 12-00                       05/19/81
1C-10529-11-05       Evaluation of Change Order Proposal,
                     The J. P. Company, Baltimore,
                     Maryland, Contract No. GS-03B-78047,
                     Change Order 12-013W                     05/19/81
IJ-10171-05-05       Claim for Increased Costs, Cleveland-
                     Detroit Company, Lease No.
                     GS-05B-12449                             OS/20/81
1D-10 37 3-11-11     Claim for           Costs, Calvert
                     General Contractors Corp., Contract
                     No. GS-03B-78057                         OS/20/81

1S-10686-04-04       Pre award Evaluat      of Pricing
                     Proposal, Diversif       Construction,
                     Ltd.                                     o     2   1

lK-10726-11-11       Preaward Evaluation of Lease
                     Alteration Pricing Proposal,
                     C.B.B. Management Corp., Lease No.
                     GS-03B-0545S                             OS/21/81
2K-10476-11-02-1-2   Cost Plus Incentive Award Fee
                     Contracts, Custodi   Guidance Systems,
                     Inc., Contract No. 03C7074301 (NEG),
                     Contract No. 03C8094101 (NEG)-2,
                     Contract No. 03C8094101 (NEG)-3          0     21/ 1

2K-10476-11-02-1-3   Cost plus Incentive Award Fee
                     Contracts, Custodial Guidance Systems,
                     Inc., Contract No. 03C6105701 (NEG),
                     Contract No. 03C6144101 (NEG)-2,
                     Contract No. 03C8084701 (NEG)-3          OS/21/81
2J-IO    6-10-10     Preaward Evaluat    of Guard
                     Contract, Huff & Huff Protect
                     Service Corp , Contract No.
                     GS-I0B-50647-01                          o    2    1


                                68
                                                              Date of
Number                              'l'i tIe                  Report
                       -----------------
2K-I0497-10-10      Cost Plus Award Fee Contract, Nash
                    Janitorial Service, Inc., Contract
                    No. 09B-0-2011                           OS/22/81
2J-I0632-04-04      Price Proposal for Cleaning Service,
                    Internal Revenue Center, Clifford
                    Davis FOB and FSS Store, Memphis,
                    Tennessee, Superb Maintenance
                    Service, Inc.                            OS/27/81
2J-I08 55-0 4-0 4   Preaward Evaluation of Pricing
                    Proposal, Colbar, Inc., Cleaning
                    Services, Federal Building,
                    Oak Ridge, Tennessee                     OS/27/81
2J-I0860-02-02      Letter Report - Preaward Proposal
                    for Security Guard Services, Masgon
                    Security Services, Inc., RFP No.
                    2PPB-TCH-19,684(NEG)                     OS/27/81

2G-00076-00-02      Price Reduction, Technicon Instru-
                    ments Corp., Contract No.
                    GS-00S-04923                             OS/28/81
2J-I0599-11-11      Pre award Evaluation of Pricing
                    Proposal, J. Callaham Rufuse Hauling,
                    Inc., Contract No. GS-IIC-I0077          OS/29/81
IS-10670-01-01      Preaward Pricing Proposal,
                    William F. Pedersen and Associates,
                    Inc.                                     OS/29/81

1 L-I07 28-11-11    Lease Escalation Proposal,
                    Arlington Alliance Ltd., Lease
                    No. GS-03B-5/07                          OS/29/81

2Q-I0580-00-26-D    Preaward Evaluation of Price Proposal,
                    Quanta Systems Corporation, Solicita-
                    tion No. GSC-CDPCE-K-00006-N-3-7-80      06/01/81
ID-00488-11-11      Claim for Increased Costs, Conoc
                    Construction Corporation, Contract
                    No. GS-03B-15480                         06/02/81

2B-I0861-00-05      Preaward Evaluation of Price Proposal,
                    Tracor Northern, Inc., Solicitation
                    No. FCGS-G-36381-N-9-24-80               06/02/81

lL-10716-09-09      Letter Report - Lease Escalation
                    Proposal, Collins/National, Lease
                    No. GS-09B-74817                         06/02/81



                               69
                                                            Date of
Number                            Title                     Report

1P-10820-03-03    Contract Hourly Billing Rates p
                  Hill International, Inc., Contract
                  No. GS-00B-2225                          06/02/81

2A-10088-08-06    Preaward Evaluation of Price
                  Proposal, Monsanto Company,
                  St. Louis, Missouri                      06/02/81

1L-I0674-02-02    Letter Report - Lease Escalation
                  for Real Estate     s, Tenth City
                  Corporation, 575 Lexington Avenue,
                  New York, New York, Lease No.
                  GS-02B-14198                             06/03/81

lL-10717-09-09    Letter Report - Lease Escalation
                  Proposal, Francisco Bay Office Park,
                  Contract No. GS-09B-40140                06/03/81

2W-I0656-09-09    Time and Materials Contract, East
                  San Diego Appliance, Contract
                  No. GS-9DPR-00078                        06/03/81
1 L-I0718-09-09   Letter Report - Real Estate Tax
                  Escalation Proposal, Sundial
                  Enterprises, Marysville, California,
                  Lease No. GS-09B-7S449                   06/04/81

lL-10727-11-11    Lease Escalation Proposals, Arlington
                  Alliance Ltd., Lease No. GS-03B-5735     06/04/81

2J-10662-10-10    Preaward Evaluation of Pricing
                  Proposal, Big Boy Facili fies
                  Maintenance and Service,
                  Contract No. GS-lO-B-50674-01            06/04/81

2U-I0111-00-11    Letter Report - Actions Taken by
                  Department of Commerce to Prevent a
                  Recurrence of Cost Overruns on
                  Purchase Order TA-80-KAA-00003 With
                  Control Data Corporation Under the
                  GSA Multiple Award Schedule Program      06/05/81

IT-I0829-02-02    Letter Report - Termination Settlement
                  Proposal, Trataros PaintIng and
                  Construction Corp., Contract No.
                  GS-02B-17,256                            06/05/81

lC-10791-11-11    Pre award Evaluation of Change Order
                  Proposal, Grunley-Walsh Construction
                  Co., Inc./W.G. Cornell Co. of
                  Washington, Inc., Joint Venture,
                  Contract No. GS-03B-78077                06/08/81


                             70
                                                               Date of
Number                               Title                     Report
lU-l0447-07-07       Letter Report - Defective Pricing
                     Review, G & H Mechanical Contractors,
                     Inc., Contract No. GS-07B-30696          06/08/81

lC-00434-05-05       Evaluation of Change Order Pricing
                     Proposal, G & M Roofing and Sheet
                     Metal Company, Contract No.
                     GS-05BC-8l743A (NEG)                     06/09/81

2B-l0846-07-07       Preaward Evaluation of Pricing
                     Proposal, Carsonite International
                     Corporation, Solicitation No.
                     7CF-5l983/L5/7FC                         06/09/81
2F-l08ll-05-05       Claim for Increased Costs, Glopak
                     Corp., Contract No. GS-05S-ll368         06/09/81
lC-l0866-ll-ll       Pre award Evaluation of Change
                     Order Proposal, AFGO Engineering
                     Corp. of Washington, Contract No.
                     GS-03B-78l77                             06/10/81

lC-l0802-03-03       Evaluation of Change Order Proposal,
                     Tishman Realty & Construction Co., Inc.,
                     Contract No. GS-00B-02839, Change Order
                     No. RCP   l30MW                          06/11/81

2W-l0633-04-04       Letter Report - Requirement Type
                     Contract with Turner Technical
                     Service, Contract No. GS-4DPR-00228      06/15/81
lM-00445-ll-ll-R     Construction Management Contract,
                     Turner Construction Company, Contract
                     No. HEW-lOO-76-0050                      06/15/81
2C-00390-00-02       Price Reduction and Defective
                     Pricing, GAF Corporation, Contract
                     No. GS-00S-44889                         06/16/81

2B-l0472-00-02       Preaward Evaluation of Pricing Proposal,
                     Itek Graphic Products, Solicitation
                     No. FCGE-M7-75l77-N-3-3-8l               06/16/81

2K-l0476-ll-02-I-l   Cost Plus Incentive Award Fee
                     Contracts, Custodial Guidance Systems,
                     Inc., Contract No. 03C707800l (NEG),
                     Contract No. 03C809420l (NEG)-2,
                     Contract No. 03C809420l (NEG)-3          06/16/81
lL-lO 59 6-09-09     Lease Escalation Proposal, Equitec
                     178 Real Estate Investors, Contract
                     No. GS-09B-50039                         06/17/81


                                71
                                                                Date of
Number                                 Tit
                                    ._------------------
2C-l0487-02-05         Audit Relative to Price Reductions
                       and De ctive Pricing, Brunswick
                       Corporation, Brunswick Bowling
                       Division, Contract No. GS-02S-30366     06/17/81

2K-l0547-09-04         Cost Plus Awa    Fee Contract,
                       Custom Janitori    Service, Federal
                       Building, Los      les, C ifornia
                       (For the Final S    and One-half
                       Months of the Contract), Contract
                       No. 09B-0-2046                          06/17/81

2K-108l5-ll-04         Final (Third Year & One Month
                       Extension) Audit of Cost Plus Award
                       Fee Contract,   stom Janitorial
                       Service, New Execut    and Winder
                       Buildings, Washington, D.C., Contract
                       No. 03C809430l(NEG)-3                   06/17/81

1 D-l 0141- 0 4- 0 4   Delay C    , Construct
                         chard B. Russell Federal
                       Building and Courthouse, Atlanta,
                       Georgia, Frank Briscoe Company, Inc.,
                       Contract No. GS-O    16375              o      1

2J-10887-04-04         Price Proposal for Cleaning Service,
                       Richard B. Russell Federal Off
                       Building and Courthouse, At     ,
                       Georgia, Superb Ma   enance Service,
                       Inc., Contract No. GS-04B-8l60l         o   8/81

2J-10628-03-03         Evaluation of Pricing Proposal    r
                       Extension of Contract Period,
                       Columbus Services, Inc., Contract
                       No. GS-03C-9l2l4                        06/18/81

lV-00739-02-02         Value Engineering Change Proposal,
                       PJR Construction     'f Contract
                       No. GS-02B-74005                        o   8/81

IT-10724-ll-11         Termination Settlement Proposal,
                       Arlandria Construct    Co., Inc.,
                       Contract No. GS-00B-17ll0               06/18/81

lA-10684-04-04         Preaward Evaluation of Pricing
                       Proposal, Ferendino, Grafton,
                         illis, Candela Arch      s
                       Engineers Planners, Inc., U.S.
                       Courthouse Annex, Miami F
                       Contract No. GS-04B-16372(NEG)          06/18/81




                                  72
                                                                Date of
Number                                                          Report

lA-10807-01-01       Preaward Audit of Pricing Proposal,
                     Hugh Stubbins and'Associates, Inc.,
                     Architects                                06/19/81

2P-I0906-04-04       Termination Claim, Protection and
                     Patrol Services, IRS and SS
                     Administration, Memphis, Tennessee,
                     Carolina Security Patrol, Inc.,
                     Contract No. GS-04B-45001                 06/19/81

2J-I0 6 44- 0 6-06   Preaward Evaluation of Pricing
                     Proposal, N.C.T. Services, Inc.,
                     Kansas City, Missouri, Contract
                     No. GS-06R:-70175-01                      06/19/81
2K-I0476-11-02-1-4   Cost Plus Incentive Award Fee
                     Contract~ Custodial Guidance Systems,
                     Inc., Contract No. GS-IIC-OOOll           06/19/81

lA-10839-11-11-D     Evaluation of Pricing Proposal,
                     Leo A. Daly Company, Contract No.
                     GS-03B-99015                              06/19/81
2J-I0630-0 3-0 3     Evaluation of Pr ing Proposal for
                     Extension of Contract Period,
                     columbus Services, Inc., Contract
                     No. GS-O   91218                          06/22/81

2C-I0096-00-09       Letter Report - Review of Price
                     Reduction and Defective Pricing,
                     Hewlett-Packard Company, Palo Alto,
                     California, Contract No. GS-00S-86953     06/22/81

lS-10733-11-11       Preaward Evaluation of Pricing
                     Proposal, Lorton Contracting Co.,
                     Contract No. GS-03B-98l63                 06/22/81

2Q-I0856-00-26-D     Pre award Evaluation of Price Proposal,
                     Microcom Corporation, Solicitation
                     GSC-CDPCE-K-00006-N-3-7-80                06/23/81
lA-10830-01-01       Preaward Evaluation of Pricing Proposal
                     for Architectural and Engineering
                     Services, Arrowstreet, Inc., Project
                     No. IMA 77770                           06/24/81

lK-10 520-0 2-0 2    Construction Costs and Costs of
                     Serv     at the Thousand Islands
                     Bridge Border Station, Thousand
                     Island Bridge Authority, Lease
                     No. GS-02B-18639                          06/24/81


                                73
                                                                  Date of
Number                               tIe                          Report

2C-00588-00-05      Pr    Reduction     Defective
                    Pric   • Minnesota Mining &
                    Manufacturing Company (3M),
                    Contract No. GS-00S-92l85                    06/24/81

2J-I0653-09-09      Letter Report - Preawa   Evaluation
                    of a Price Proposal     Janitorial
                    Services, United Maintenance Service,
                    Inc., RFP No. PBS-9PPB-8l-0048               06/24/81

2C-00407-00-09      Pr ice Reduct   and Defective
                    Pricing, Lex ron        ation,
                    Contract No. GS-00S-66046                    06/24/81

2B-I0623-00-02      Pre award Evaluat           Pricing
                    Proposal, Litton Bus         stems,
                    Inc., Monroe Divis      I   Solicitation
                    No. FCGE-Y4-75161-N                          06/24/81

2X-I0876-08-08      Accounting     tern S        , Gener
                    Automotive, Diesel &         ustrial
                    Repair, Inc., Solic         ion No.
                    GSD-8DPR-I0002                               06/2

IS-10857-01-01      Pre award Audit of Pricing             aI,
                    Rayco Paint     Co., Inc.                    o     25/81

IJ-10172-05-05      Claim for Increased Costs,
                    Cleveland Super    Company, Lease
                    No. GS-05B-12574                             06/25/81

1 L-I0849-0 4-0 4   Letter Report - Lease Escalation
                    Review, First Union Management, Inc.,
                    Lease No. GS-04B-15177                       06/25/81

2C-00768-00-01      Price      t    and Defect     Pricing,
                    Royal Business Machines, Inc.,
                    Contract Nos. GS-00S-06559, 43327,
                    92172                                        06/2     81

2J-10905-02-02      Letter Report - Pre award Eva
                    of Pricing          , Apex Invest
                    gation & Securi   Co., Subcontractor
                    to the Small Bus ness Administration,
                    Solicitation No. 2PPB-DS-19,698(NEG)         06/25/81
lA-10732-11-11      Preaward Evaluation    A-E Pr ing
                    Proposal,     s, Condon & Florance,
                    Inc., Contract No.     IB-09019              06/26/81

2S-10847-00-06      Letter Report - Price       ion and
                    Defective Pricing Review, Motorola,
                    Inc., Contract No. GS-OOS-66273              06/      81


                               74
                                                           Date of
Number                           Title                     Report
                 ------------------
2G-00077-00-05   Price Reduction and Defective
                 Pricing, General Electric Company,
                 Contract No. GS-00S-64796                06/29/81

2B-I0812-00-05   Preaward Evaluation of Pricing Proposal,
                 American Hamilton, Division of American
                 Hospital Supply Corp., Solicitation No.
                 FCGE-Y5-75159-N-2-17-8l                  06/29/81
2C-I0479-00-02   Price Reduction and Defective Pricing
                 Review, Carl Zeiss, Inc., Contract
                 No. GS-00S-64240                         06/29/81

2P-I0600-11-11   Six Fixed Price Contracts, Miracle
                 Contractors, Inc.                        06/29/81

ID-00194-05-05   Claim for Increased Costs, Kawneer
                 Company, Inc., Subcontractor to
                 Utley-James, Inc., Contract No.
                 GS-05BCA-0296                            06/30/81
lC-10720-10-10   Preaward Evaluation of Change Order
                 Proposal, Williams and Abbott
                 Construction, Inc., d/b/a S & R
                 Construction Company, Contract
                 No. GS-IOB-E-02220-11                    06/30/81
lL-10121-02-02   Lease Escalation Proposal, Seymour J.
                 Hirschfeld and Lester G. Kalt,
                 740 Walt Whitman Road, Huntington,
                 New York, Lease No. GS-02B-18623         06/30/81

IT-I0723-11-11   Termination Settlement Proposal,
                 Harry Alexander, Inc., Purchase
                 Order No. 10524961                       06/30/81
2K-I0480-11-04   Cost Plus Award Fee Contracts,
                 Government Contractors, Inc.,
                 John W. Powell Federal Building,
                 Reston, Virginia, Contract Nos.
                 03C-8090501(NEG)-2 and
                 03C-9004001(NEG)-3                       06/30/81
2K-I0595-1l-04   Cost Plus Award Fee Contract,
                 Government Contractors, Inc.,
                 Department of Commerce Building,
                 Washington, D.C., Contract No.
                     lC-00013                             06/30/81

2J-I0893-05-05   Preaward Evaluation of Pricing
                 Proposal, JOWA Security Services,
                 Inc., Solicitation No. GS-05B-42129      07/02/81


                            75
                                                                 Date of
Number                                   Title
                                            ----,               ....B.~
2B-10626-00-03          Preaward Evaluation of Pricing
                        Proposal, Remington Rand Corporation,
                        FCGE-Y9-75l60-N-4-l-8l                  07/06/81

2J-10666-l0-l0          Pre award Evaluation of Pricing
                        Proposal, Decor Maintenance Company,
                        Inc., Contract No. GS-IOB-50676-01      07/09/81

2J-10646-06-06          Preaward Evaluation of Pricing
                        Proposal, Professional Technical
                        Services, Inc., St. Louis, Missouri     07/13/81

2S-l009l~OO-07          Letter Report - Price Reduction and
                        Defect    Pricing Review, Rockwell
                        Internat    1 Corporat   , Contract
                        No. GS-OOS-66631                        07/14/81

lL-10729-11-11          Lease Escalation Proposal,
                        Samuel Zel1, Trustee, Lease
                        No. GS-03B-5711                         07/14/81

2A-I0858-04-04          Preaward Evaluat       Cost and
                        Pricing Data     Security Pad
                        Sargent &          I Inc.,
                        Solicitation No. AT/TC 19121            07/1       1

1 L-l 084 5- 0 2- 0 2   Operating Costs   r    endar Year
                        1980 for the Peace Bridge, Buffalo,
                        New York, Buffalo and Fort Er
                        Public Bridge Authority, Lease No.
                        GS-O 2B-l8 66 0                         o      5/81

lA-107l2-ll-09-R        Preaward Evaluation of an Architec-
                        tUral-Engineering (A-E) Proposal
                        Submitted by Gruen Associates,
                        Architects                              07/16/81

IB-I0444-07-07          Preaward Evaluat    of Supplemental
                        A-E Proposal, Olivo     Associates,
                        Supplemental A-E Services, State of
                        Oklahoma                                o      7   1

2K-I0555-04-04          Final (Second and Third Year) Audit
                        of Cost Plus Award Fee Contract,
                        Scientific Industries, Inc., U.S.
                        Post Office - Courthouse, Huntsville,
                        Alabama, Contract GS-04B-l6709          07/17/81

2A-I0824-07-ll-D        Preaward Eva   tion    Pr ing
                        Proposal, Household Data Services,
                        Inc., Solicitation No. 7CF-52098/
                        X5/7FC                                  07/17/81


                                    76
                                                                    Date of
Number                                   Title                      Report
                                             -------------------
2C-00263-00-04         Letter Report - Price Reduction
                       and Defective Pricing, EMR Telemetry,
                       Inc.                                        07/22/81

2J-10913-02-02-D       Pre award Evaluation of Pricing
                       Proposal for Guard Services, City
                       Wide Security Services, Inc.,
                       RFP # 2PPB-TCH-19,709 (NEG)                 07/22/81

2C-10491-00-04         Price Reduction and Defective
                       Pricing, Racal-Milgo Information
                       Systems, Inc., Contract GS-OOC-01764        07/23/81

2B-10669-00-11         Letter Report - Preaward
                       Evaluation of Pricing Proposal,
                       IBM Corp.                                   07/23/81

1A-10864-11-02         Pre award Evaluation of Pricing
                       Proposal for Structural and
                       Geotechnical Engineering Services,
                       Ewell Finley, P.C., Subcontractor
                       to Shepley, Bu1finch, Richardson
                       and Abbott, Inc., Under Prime
                       Contract No. GS-11B-09007                   07/23/81

1B-10987-11-11         Preaward Ev1auation of A-E
                       Pricing Proposal, Harrison
                       Associates, Inc., Contract No.
                       GS-11B-19027                                07/23/81

2J-12002-06-06         Preaward Evaluation of Pricing
                       Proposal, Ridley Southside Janitorial
                       Service, Inc., Kansas City, Missouri,
                       Contract No. GS-06B-70172-01                07/23/81

1J-10438-0S-0S         Preaward Evaluation of Proposed
                       Rental Costs, Detroit & Canada Tunnel
                       Corporation, Lease No. GS-OSB-12863         07/24/81

ID-I014S-04-04         Claim for Increased Costs, Federal
                       Building - Jackson, Mississippi
                       North Landing Line Construction
                       Company, Inc., Contract GS-04B-16S71        07/27/81

2G-I0500-00-ll         Price Reduction Refund, ACME
                       Visible Records, Inc., Contract Nos.
                       GS-00S-92262 and GS-OOS-92730               07/27/81

2 3- 8 0 08 -113 - F   Letter Report - Price Reduction and
                       Defective Pricing Audit,
                       ACME Visible Records, Inc.,
                       Contract Nos. GS-OOS-33044, 0681S,
                       and 66124                                   07/29/81

                                    77
                                                              Date of
Number                                   Title

lL-00731-11-11       Lease Escalation Proposal,
                     Northwestern Development Company,
                     Lease No. GS-03B-6521                   07/29       1

2A-I0814-00-07       Pre        Evaluation    Pricing
                             aI, Delta Manufacturing and
                           Sf Inc., Contract GS-OOS-20139    07/2        1

2A-I0875-00-26-D     Evaluation of Pr          aI,
                     Bernsten Cast Products, Inc. ,
                     RFP FCGS-B-36387-N-3-2 81               07/       /81

ID-I0881-06-06       Evaluation of Contractor's Claim
                     for I         Costs, Central
                     Industrial Electric Company,
                     Contract No. GS-06B-8l0l0               07/29/81

2K-I0636-04-04       Final (Six Months) Audit of Cost
                     Plus Award Fee Contract, American
                     Masters C ani        terns, IRS
                     Center, Chamblee, Ge     ia, Contract
                     No. GS-04B-16870                        07

2J-120    -02-02-D   Preaward Evaluat    of Pr i
                           al for Guard Services, Ci
                     Wide Securi   Services, Inc.,
                     RFP # 2PPB-ED-19,7l4 (NEG)              o
lS-10838-11-11       Preaward Eva   t    of SBA(8a)
                     Pricing Proposal, Keith & Pickett,
                     Inc., Contract No. GS-03B-8~358         07/         1

lL-10880-08-08       Lease Escalation Proposal,
                     Forest Service Building, Lib
                     Montana, Le e No. GS-08B-               o
ID-10741-1    11     Claim for Incre     Costs,
                     William F. Klingensmith, Inc.,
                     Contract No. GS-03B-78037               o
2\'11-10665-10-10    Letter Report - Cont uous
                     Maintenance of     iances in
                     Alaska, Gull's Incorporated,
                     Contract No. GS-IODPR-95625             07/3       81

2J-Il009-04.,..04    Price        1 for Cleaning
                     Services Various Buildings,
                     Miami~ Florida, A&B
                     Maintenance                             o/
2C-0076    00-01     Price Reduction and Defect    Pricing
                     Kendall Compa  , Contract No.
                     GS-OOS-64291 (Renewal)                  o     0     1


                                    78
                                                                     Date of
Number                               '1'i tIe                        Report
                                                -----------------
2E-10S31-00-03     Evaluation of Progress Payment
                   Submissions, Commuter Vehicles,
                   Inc., Contract No. GS-00S-15122,
                   Payment Nos. 5 through 11                        OS/05/S1

2A-10903-00-01     Preaward Evaluation of Pricing
                   Proposal, Sunsav, Inc.,
                   Solicitation FCGE-B5-751S1                       OS/05/S1

1L-109S1-09-09     Letter Report - Lease Escalation
                   Proposal, Torrey Pines Bruno Inc.,
                   1250 Bayhi11, San Bruno, California
                   Lease No. GS-09B-76442                           OS/05/Sl

2Z-12007-00-26-D   Review of Contractor's Accounting
                   System, 3D-Fire Apparatus, Inc.,
                   Solicitation TCPH-H7-2035l-N-5-2S-S1             OS/05/81

1A-10701-11-07-R   Preaward Evaluation of Pricing
                   Proposal, Bernard Johnson, Inc.,
                   Civil Engineering Services                       OS/06/S1

1D-10713-09-09     Evaluation of Pre-Contract Utility
                   Billings, Southern California
                   Edison and Camroaa Water District                08/06/81

1A-10790-11-11R    Preaward Evaluation of A-E Pricing
                   Proposal, Bernard Johnson, Inc./
                   District Engineering Services, Inc.,
                   Joint Venture                                    OS/06/S1

1B-l094l-0l-0l     Preaward Evaluation of Pricing
                   Proposal, Alonzo B. Reed, Inc. -
                   Architects, Boston, Massachusetts                08/06/S1

lL-l0976-09-09     Lease Escalation Proposal, Murdock
                   Management Company, 33 North Stone
                   Avenue, Tucson, Arizona, Lease No.
                   GS-09B-7S446                                     OS/06/S1

1L-10939-01-01     Lease Escalation Proposal,
                   Finard Auburn Trust, Lease No.
                   GS-OIB(PRA)-02947 NEG.                           OS/07/81

1L-l0954-04-04     Letter Report - Lease Escalation
                   Review, Adler Developers, Hollywood,
                   Florida, Contract No. GS-04B-20221               OS/lO/Sl

lA-00442-10-l0     Pre award Evaluation of A-E Pricing
                   Proposal, Hewitt/Daly, Architects,
                   Project Number IWA 9S500                         OS/13/81



                                79
                                                              Date of
Number                               Title

2B-I0493-00-07-P   Letter Report - Preaward Evaluation
                   of Revised Pricing Proposal, Abbott
                   Laboratories, Solicitation No.
                   FCGS-P-36385-N-2- 81                      OB/13/81
lL-10953-04-04     Letter Report _. Lease Escalation
                   Review, Bertram Goldsmith, Jr.
                   Company, FBI Building, 3801 Biscayne
                   Blvd., Miami, Plor a, Lease No.
                   GS-04B-15075                              08/l3/Bl
ID-I0138-02-02     Claim for Increased Costs Due to
                   Delay, Jacobson & Co. Inc., Sub-
                   contractor to Carlin-Atlas Co. under
                   Prime Contract No. GS-02B-16835           OB/14/81
lC-10693-05-05     Letter Report - Evaluation of Change
                   Order Proposals, Holbrook Water-
                   proofing Company, Contract No.
                   GS-05BC-818B3                             OB/14/81

lC-10885-05-05     Evaluation of Change Order Proposal,
                   Rand Construction Company, Contract
                   No. GS-05BC-82096A, Change Order
                   No. 5002                                  08/17/81
lA-00441-10-10     Preaward Evaluation of A-E Pricing
                   Proposal, Zimmer, Gunsul, Frasca
                   Partnership, Project No. lOR 96215        08/18/81

2C-I0478-01-02     Letter Report - Price Reduction and
                   Defective Pricing, Prentice-Hall,
                   Inc., Contract No. GS-OlS-07095           OB/18/Bl

ID-I0907-11-11     Claim for Increased Costs, John H.
                   Hampshire, Inc., Contract No.
                   nS-00B-02753                              OB/18/81
2B-12027-00-01     Preaward Evaluation of Price
                   Proposal, Acoustical Screens Corp.,
                   Longmeadow, Massachusetts, Solici-
                   tation FNMF-F5-1029-N-4-16-81             08/19/81

2A-12034-00-26-D   Preaward Evaluation    FFP Proposal,
                   Mechanical Mirror Works, Inc.,
                   RFP No. FNMF-F4-1033-N-318-81             08/19/81

2W-I0634-04-04     Letter Report - Repa    and Maintenance
                   of Adding Mach     and Calculators,
                   Litton Business    terns, Inc.,
                   (Monroe Division), Atlanta, Georgia       08/20/81



                                80
                                                             Date of
Number                                ':ri tIe               Report

lL-10973-09-09      Lease Escalation Proposal,
                    8 Homewood Place, Menlo Park,
                    Lease No. GS-09B-76628                  08/20/81

ID-12005-04-02      Claim for Increased Costs, Capital
                    Sheet Metal Company, Subcontractor
                    to Frank Briscoe Company, Inc., under
                    Prime Contract No. GS-04B-1637S         08/20/81

2P-12016-10-10      Defective Pricing Review, Decor
                    Maintenance Company, Inc., Contract
                    No. GS-IO-B-50479-01                    08/20/81

IT-12021-11-11      Termination Settlement Proposal,
                    BRA Contractors Company, Contract
                    No. GS-03B-98190                        OB/20/81

lL-10958-05-05      Lease Escalation Proposal, Terry-
                    dale Management Corporation, Lease
                    No. GS-OSBR-llS27                       08/21/81

lC-12013-07-07      Preaward Evaluation of Change Order
                    No. 18, Algernon Blair, Inc.,
                    Contract No. GS-07B-30855               08/21/81

lC-10900-06-06      Evaluation of Change Order Proposal
                    (P-65), C. Rallo Contracting Company,
                    Inc., St. Louis, Missouri, Contract
                    No. GS-06B-81001                        08/24/81

lC-10901-06-06      Evaluation of Change Order Proposal
                    (P-64), C. Rallo Contracting Company,
                    Inc., St. Louis, Missouri, Contract
                    No. GS-06B-810-01                       08/24/81

2A-12017-00-26-D    Evaluation of Price Proposal to
                    Definitize Letter Contract
                    GS-00S-22058, CACI, Inc., - Federal     08/24/81

lK-10704-07-07      Preaward Evaluation of Pricing
                    Proposal, Victor Palmieri and
                    Company, Inc., (Agent for Lessor),
                    Lease No. GS-07B-7029                   08/25/81

IJ-IOI73-05-05      Claim for Increased Costs, Ohio
                    State University, Solicitation
                    No. GS-OSB-12797                        08/26/81

2H-IOS68-07-07(a)   Defective Pricing Review, American
                    Hospital Supply Corporation,
                    Scientif   Products Division,
                    Contract No V797P-5576d                 08/26/81


                                 81
                                                           Date of
Number                        Title

2H-I0568-07-07(b)   Defective Pricing Review, American
                    Hospital Supply Corporation,
                    Scientific Products Division,
                    Contract No. V797P-5206e               08/26/81

2H-I0568-07-07(c)   Defective Pricing Review, American
                    Hospital Supply Corporation,
                    Scientific Products Division,
                    Contract No. V797P-5871e               08/26/81

2J-I0654-09-09-D    Price Proposal for Armed Guard
                    Services, Stovall Security Services,
                    Inc., Request for Proposal No.
                    PBS-9pPB-SI-0051                       08/26/81

2C-I0642-00-05      Price Reductions and Defective
                    Pricing, Tracor Northern, Inc.,
                    Contract No. GS-OOS-04914              08/27/81

lK-10736-11-11      Preaward Evaluation of Lease
                    Alteration Pricing Proposal,
                    Sylvan C. Herman, Lease No.
                    GS-03B-70111                           08/27/81

IB-I0940-01-01      Pre award Evaluation of Pricing
                    Proposal, Herbert S. Newman
                    Associates, New Haven, Connecticut     08/27/81

2J-l1040-11-11      Preaward Evaluation of Pricing
                    Proposal, Howard Security Services,
                    Inc., Contract No. GS-IIC-I0156        08/27/81

lL-1206 2-09- 09    Letter Report - Lease Escalation
                    Proposal, One Wilshire Associates,
                    Lease No. GS-09B-76541                 08/27/81

2Z-12004-00-26-D    Preaward Evaluation of Price
                    Proposal, AM General Corporation,
                    Solicitation TCPL-P3-24966-N-5-5-S1    08/28/81

2A-12036-00-02      Preaward Evaluation of Cost or
                    Pricing Data, Michael Business
                    Machines Corp., Solicitati.on No.
                    FCGE-M7-75177                          08/28/81

2W-12014-07-07      Postaward Pricing Review, All
                    Products Business Machines, Inc.,
                    Contract No. GS-07D-00155              08/28/81




                                82
                                                            Date of
Number                              Title                   Report

lA-10430-04-04     Preaward Evaluation of Pricing
                   Proposal, Walk Jones & Francis
                   Mah, Inc., Nashville, Tennessee,
                   Union Station, Contract No.
                   GS-04B-79739 (NEG)                       08/31/81

lL-10696-05-05     Lease Escalation Proposal, Exchange
                   National Bank of Chicago, Trustee,
                   Lease No. GS-05BR-9612                   08/31/81

lL-10S70-05-05     Letter Report - Lease Escalation
                   Proposal, Peoples Federal Savings
                   and Loan Association, Lease No.
                   GS-05B-12635                             08/31/81

lL-10990-11-11     Lease Escalation Proposal,
                   2025 M Associates, Lease No.
                   GS-03B-90012                             08/31/81

2B-1202S-00-01     Pre award Evaluation of Pricing
                   proposal, Nashua Corporation,
                   Solicitation No. FCGE-M6-7S186           08/31/81

2J-120S7-07-07     Preaward Evaluation of Pricing
                   Proposal, Guard Services, Texas
                   Security Police, Solicitation No.
                   GS-07B-21403                             08/31/81

2B-IIOOI-IO-Ol     Preaward Evaluation of Pricing
                   Proposal, Boston Whaler, Inc.,
                   Solicitation No. 10-PN-HRS-0001          09/01/81

lA-1012S-02-02     Preaward Evaluation of Pricing
                   Proposal for Architect-Engineering
                   Services, Gruzen & Partners, The
                   Ehrenkrantz Group, Syska & Hennessy,
                   A Joint Venture, Contract No.
                   GS,":,,02B-23092                         09/02/81

lL-10SlS-02-02     Lease Escalation Proposal, Calvi
                   Electric Company, 11 South Iowa
                   Avenue, Atlantic City, New Jersey,
                   Lease No. GS-02B-1801S                   09/02/81

2J-12008-02-02     Letter Report - Pre award Evaluation
                   of Pricing Proposal, Vigilantes, Inc.,
                   Solicitation No. 2PPB-JG-19710 {NEG}     09/02/81

2Q-12032-00-26-D   Preaward Evaluation of Price
                   Proposal, Omnitek, Inc., Solicitation
                   No. GSC-CDPCE-K-00006-N-3-7-80           09/02/81



                               83
                                                         Date of
Number                                                   Re120rt

2F-I0326-11-08   Postaward Audit of Coal Requirements
                 Contract, D&8 Universal Mining, Inc.,
                 Contract No. G8-038-51472               09/03/81

18-10988-11-11   Pre award Evaluation of A-E pricing
                 Proposal, James Posey Associates,
                 Inc., Contract No. GS-IIB-19026         09/03/81

2J-II014-05-05   Preaward Evaluation of Pricing
                 Proposal, Rainey's Security Agency,
                 Inc., Contract No. GS-OSB-42l32         09/04/81

IB-12072-05-05   Letter Report .- Preaward Evaluation
                 of Proposed Overhead Rates and
                 Salary Rates, Belli & Belli Co.,
                 Proposal No. GS-OSBC-90458              09/04"/81

IB-12079-01-01   Preaward Evaluation of Pricing
                 Proposal, The Architectural
                 Association, Waitsfield, Vermont        09/04/81

IF-00186-04-04   Overhead and Data Processing Costs,
                 Construction Data Control, Inc.,
                 Tucker, Georgia, Contract No.
                 GS-04B-79732 (NEG)                      09/09/81

2J-II036-10-10   Coast Janitorial Service, Inc.,
                 Contract No. GS-IO-B-50699-0l           09/11/81

lL-12061-08-08   Lease Escalat    - Lea Company,
                 Water Laboratory Building, Arvada,
                 Colorado, Lease No. GS-OSB-09806        09/11/81

lW-10801-02-02   Pre award Evaluation of Pricing
                 Proposal (CPFF), Lasker-Goldman
                 Corporation/Goldman Associates,
                 USDA Contract No.50-3K06-0-23           09/14/81

ID-I0886-04-04   Delay Claim, Federal Building &
                 U.S. Courthouse, Ft. Lauderdale,
                 Florida, Dawson Construction
                 Co., Contract No. GS-04B-16543          09/14/81

2J-II012-04-04   Preaward Evaluation of Pricing
                 Proposal, Mr. Klean's Janitor &
                 Maintenance Service, Inc., Internal
                 Revenue Service Center, Covington,
                 Kentucky, Contract No. GS-04B-81696     09/14/81




                             84
                                                                 Date of
Number                                  Title                    Report

2P-l1007-04-04         Review of Parking Concession Contract
                       at the Richard B. Russell Federal
                       Office Building and Courthouse, Parking
                       Company of America, Contract No.
                       GS-04B-50l9l & 50382                    09/15(81
2B-ll02l-l0-05         Pre award Evaluation of Price Proposal,
                       Mercury Marine, Division of Brunswick
                       Corp., Solicitation No. 10PN-HRS-000l     09/15/81
2J-12086-04-04         Preaward Evaluation of Pricing
                       Proposal, De Marion Janitorial
                       Services, Walnut Tower Building,
                       Vicksburg, Mississippi                    09/15/81

2Q-ll038-00-ll         Preaward Evaluation of Pricing
                       Proposal, Automated Datatron, Inc.,
                       Solicitation No. GSC-CDPXE-8l-0003        09/16/81

23-9430-ll5(a)         Audit Relative to Price Reduction
                       and Defective Pricing, NCR Corp.,
                       Contract No. GS-OOS-43l52                 09/16/81
23-9430-ll5(b)         Audit Relative to Price Reduction
                       and Defective Pricing, NCR Corp.,
                       Contract No. GS-00S-66700                 09/16/81
23-9430-ll5(c)         Audit Relative to price Reduction
                       and Defective Pricing, NCR Corp.,
                       Contract No. GS-00S-92854                 09/16/81
2J-ll03l-09-09-I-l-D    Price Proposal for Armed Guard
                       Services, Inter-Con Security
                       Systems, Inco l Request for Proposal
                       No. PBS-9PPB-8l-0077                      09/16/81

2J-ll03l-09-09-1-2-D    Price Proposal for Armed Guard
                       Services, Inter-Con Security
                       Systems, Inc., Request for Proposal
                       No. PBS-9PPB-8l-0078                      09/16/81
2C-10106-00-10         Letter Report - Price Reduction and
                       Defective Pricing, Information
                       International, Inc.                        09/17/81

IT-120l9-ll-ll         Termination Settlement Proposal,
                       The Olympic Corp., Contract No.
                       GS-03B-98l57                              09/17/81
lL-12l05-09-09         Letter Report - Property Tax
                       Escalation Proposal, Shane Realty
                       Co., Contract No. GS-09B-08456            09/18/81


                                   85
                                                             Date of
Number                               Title                   Re~!:_

2B-I064~-00-08      Preaward Evaluation of Pricing
                    Proposal, Information Handling
                    Services, Solicitation No~
                    FCGE-B7-75IBO-N-3-l2-8l                 09/21/81

1I.. -12095-09-09   Letter Report - Request for Audit,
                    Property Tax Escalation Claim,
                    Del E. Webb Realty and Management
                    Co., Agents for Travelers Insurance
                    Co., 101 North First Avenue, Phoenix,
                    Arizona, Lease No. GS-09B-77314         09/21/81

2C-I0S77-00-07      Letter Report - Price Reduction and
                    Defective Pricing Review, Endevco,
                    Contract No. GS-OOS-0466S               09/22/81

2C-Il022...,10-06   Letter Report - Pre award Evaluation
                    of Price Proposal, MonArk Boat Co.,
                    Monticello, Arkansas                    09/22/81

ID-12010-03-11      Claim for Increased Costs, Paul-Rice
                    Engineering Co., Inc., Contract No.
                    GS-03B-88953                            09/23/81

2J-12099-02-02      Pre award Proposal for Securi  Guard
                    Services, Masgon Patrol Services,
                    Inc., Subcontractor Under the U.S.
                    Small Business Administration,
                    RFP-2PPB-ED-19,699(NEG)                 09/24/81

2C-I0494-00-07      Price Reduction Review, Owens
                    Illinois, Inc., Kimble Division,
                    Contract No. GS-00S-86093               09/25/81

2B-l0668-00-,11     Pre award Evaluation of Pricing
                    Proposal, Acme Visible Records, Inc.,
                    Solicitation No. FCGE-Y3-7Sl62-N-3-
                    17-Sl                                   09/25/81

2A-l1020-00-0S      Letter Report - Preaward Eva1uat
                    of Price Proposal, Luma Electric
                    Equipment Co., Solicitation No.
                    FTP-BT-I04750-N-3-16-S1                 09/2   81

IS-10432-04-04      Pre award Evaluation of Pricing
                    Proposal, AMC Mechanical Contractors,
                    Inc •. , Contract No. GS-04B-81022      09/28/81

2C-I0639-01-0S      Letter Report - De ct    Pricing
                    and Price Reduction, Commerce
                    Clearing Houser Inc., Contract
                    No. GS-01S-07096                        09/28/81


                                86
                                                              Date of
Number                              Title                     Report
2Z-10892-06-06     Letter Report - Evaluation of
                   Contractor's Performance Under
                   Term Contract GS-06T-00252,
                   R. L. Jones & Sons, Inc.,
                   Kansas City, Missouri                     09/29/81

2B-12080-01-05     Pre award Evaluation of Price Proposal,
                   Callaghan & Company, Solicitation No.
                   BO/FS-B-00271                             09}29/81

1L-10695-05-05     Letter Report - Lease Escalation
                   Proposal, Detroit Associates
                   Limited Partnership, Lease No.
                   GS-05BR-9585                              ~9/30/81

2C-10874-00-01     Price Reduction and Defective Pricing,
                   Acoustical Screens Corp., Contract
                   No. GS=00S-S1364                          09/30/81

2Z-12067-00-26~D   Progress Payment Request iI,
                   Electric Vehicles Associates, Inc.,
                   Contract No. GS-OOS-33232                 09/30/81

2Q-12073-00~26-D   Evaluation of Price Proposal,
                   Science Applications, Inc., Solici-
                   tation No. GSC-CDPS-C-00019-N-5-l9-8l     09/30/81

lL-12083-01-01     Letter Report - Lease Escalation
                   Proposal, Gateway Realty Trust,
                   Lease No. GS-OIB (PRA) 2938               09/30/81

2C-12085-10-06     Letter Report - Price Reduction
                   and Defective Pricing Review,
                   OMC Lincoln, Contract No.
                   GS-IOS-43481                              09/30/81

lS-12091-06-06     Preaward Evaluation of Pricing
                   Proposal, C. L. Fairley Construc-
                   tion Co., Inc., Kansas City, Kansas,
                   Contract No. GS-06B-23591                 09/30/81

2P-12098-l0-10     Defective Pricing Review, Coast
                   Janitorial Services, Inc.,
                   Contract No. GS-IO-B-50525-0l             09/30/81




                               87
                                                          APPENDIX II


                      REPORT REGISTER
                     INSPECTION REPORTS

                                                             Date of
Number                             Title                     Report

Leasing Program

PBS-L-09-Sl       Management Study on Succeeding
                  Leases in the National Capital Region     OS/Ol/Sl
S-PBS-L-OS-Sl     U.S. Fish and Wildlife Building
                  (proposed), Albuquerque, New Mexico       OS/27/S1

W-PBS-L-ll-Sl     The Western Archaeological Center,
                  6th Avenue & Drachman Street,
                  Tucson, Arizona                           OS/28/S1

NC-PBS-L-13-Sl    City Center Square Building,
                  Kansas City, Missouri                     06/23/S1

NC-'PBS-L-14-8l   EPA Laboratory, Kansas City, Missouri    06/23/S1

S-PBS-L-14-8l     Savers Federal Building, DHUD,
                  Little Rock, Arkansas                    06/30/81

S-PBS-L-Ol-Sl     City Center Building, Miami, Florida     07/14/81

S-PBS-L-20-8l     Social Security District Office,
                  Fort Myers, Florida                       07/16/81

W-PBS-L-19-8l     Special Review, Helena, Montana,
                  Federal Building                         07/23/81

PBS-L-12-Sl       Queens Center Office Tower,
                  95-25 Queens Boulevard, Rego Park,
                  New York                                 07/29/81

W-PBS-L-13-Sl     The Lloyd 500 Building,
                  500 Multnomah Avenue, Portland,
                  Oregon                                   08/18/81

PBS-L-14-Sl       The Analex Building, 150 Causeway
                  Street, Boston, Massachusetts            09/11/81

NC-PBS-L-09-8l    Federal Center, Madison, Wisconsin       09/29/81

S-PBS-L-02-8l     International Trade Mart,
                  New Orleans, Louisiana                   09/30/81




                             8S
                                                                 Date of
Number                                Title                      Report

Buildings Operations Pro9ram

S-PBS-B-11-81        GSA Public Buildings Service Field
                     Office, San Antonio, Texas              04/13/81

PBS-8-12-81          Review of Foundation Studies of
                     Old Post Office Building                04/22/81

S-PBS-C-01-81        Handicapped Facilities, Fort Worth
                     Federal Center, Warehouse #4            05/1        81

S-PBS-C-02-81        2nd Floor Alterations, Houma,
                     Louisiana                               0         5/81

S-PBS-C-09-81       NARS Space Changes, Warehouse #4,
                    Fort Worth Federal Center                06/0        81

S-PBS-C-03-81       Entrance Ramp, Alexandria, Louisiana     06/26/81

PBS-B-171-80         Loop Field Office, Chicago, Illinois    07/0        81

S-PBS-B-IO-8l       GSA Public Buildings Service Field
                    Office, Austin, Texas                    0     0     81

PBS-B-13-8l                of Buffalo Field Office,
                    Buffalo, New York                        07/0

PBS-B-20-81         Renovations, U.S. District Courthouse,
                    Washington, D.C.                         0           1

W-PBS-C-01-81       Review of Golden Gate Field Office,
                    450 Golden Gate Avenue, San Francisco,
                    California                               08/0        1

PBS-B-23-81         Technical Review of Selected
                    Reimbursable Work Authorizations
                    (RWAs) at the Labor Field Office
                    for the General Accounting Office        08/2        1

S-PBS-C-05-81       Inspection of Repair and Alteration
                    Project, Replace Dock Bumpers,
                    Federal Center #4, Fort Worth,
                    Texas                                    o     25/81

PBS-B-24-81         Loading Dock Roof and Wall
                    Structural Repairs, U.S. Courthouse,
                    Richmond, Virginia                       08/        81

NC-PBS-B-04-81      Roof Replacement Review, Federal
                    Building, Indianapolis, Indiana          08/24/81



                               89
                                                          Date of
Number                            Title                   Report

S-PBS-C-OS-Sl    Partitioning of Interior Space and
                 Related Work, Richard B. Russell
                 Federal Building, Atlanta, Georgia      09/02/81

NC-PBS-B-lO-Sl   Central Field Office, Chicago,
                 Illinois                                09/03/81

PBS-B-l6-Sl      Contract GS-03B-SS282, Alterations
                 to IRS Payment Center, Philadelphia,
                 Pennsylvania                            09/04/S1

PBS-B-l9-Sl      Inspection of Repair and Alteration
                 Project, Additional Court Facilities
                 and Renovations, Federal Building and
                 Courthouse, Hartford, Connecticut       09/04/81

NC-PBS-B-OS-Sl   Roof and Drain Repair, Federal
                 Building, U.S. Courthouse, Cleveland,
                 Ohio                                    09/09/81

PBS-B-l7-Sl      Emergency Structural Repairs to
                 Southwest Corner of Food and Drug
                 Administration Building                 09/09/81

NC-PBS-B-l2-Sl   Review of Selected Change Orders
                 Restoration/Renovation, U.S.
                 Customhouse and Post Office,
                 St. Louis, Missouri                     09/10/S1

S-PBS-B-l4-Sl    GSA public Buildings Service
                 Field Office, Mobile, Alabama           09/14/81

S-PBS-B-1S-Sl    Public Buildings Service Field
                 Office, Thomasville, Georgia            09/16/81

W-PBS-C-10-Sl    Construction of Six-Unit
                 Residence Alaska Highway Border
                 Station Mile 1221.8, Alaska-Yukon
                 Highway, Contract No.
                 GS-IOB-E-02l22-00                       09/18/81

W-PBS-C-09-8l    Handicapped Provisions and
                 Alterations, Building 40, Denver
                 Federal Center, Denver Colorado         09/21/81

NC-PBS-B-16-8l   Review of Cincinnati Field Office,
                 Cincinnati, Ohio                        09/22/81

PBS-B-2S-8l      Review of Proposal for the Security
                 System Renovation of the IRS Center,
                 Austin, Texas                           09/24/81


                            90
                                                                Date of
Number                                     Title                Report

NC-PBS-B-13-S1         Field Office Review, Des Moines,
                       Iowa                                    9/25/S1
PBS-B-22-S1            Inspection of Repair and Alteration
                       Project, Building Modernization,
                       John F. Fogarty Federal Building,
                       Providence, Rhode Island                09/2S/S1

PBS-B-03-S1            State Field Office, Washington, D.C.    09/30/S1

PBS-B-15-S1            Review of Contract No. GS-03B-7S077,
                       Renovations of Old Post Office Build-
                       ing, Washington, D.C.                   09/30/S1

NC-PBS-B-ll-Sl         Review of Downtown Field Office,
                       St. Louis, Missouri                     09/30/S1

NC-PBS-B-14-S1         Field Office Review, Omaha, Nebraska    09/30/S1
PBS-B-ll-Sl            Review of Patrick Henry Field Office,
                       Washington, D.C.                        09/30/S1


Construction Program

PBS-C-07-S1            Lease Construction Project,
                       u.S. Border Inspection Facility,
                       Wellsley Island Collins Land,
                       Alexander Bay, New York                 05/06/S1

PBS-C-OS-Sl            Nassif Building, Installation
                       Chillers, Crane vs Helicopters
                       Cost Comparison                         OS/2S/S1

PBS-C-07E-SO           Federal Office Building, Anchorage,
                       Alaska, Report on Bid Package 30
                       Electrical Work                         OS/05/S1

W-PBS-C-15-S1          New Extension of Social Security
                       Administration, District Office
                       Building, Huntington Park,
                       California, Contract No.
                       GS-09B-71765-SF                         08/25/S1

PBS-C-02-S1            A-E Selection Process, San Jose
                       Federal Office Building, San Jose,
                       California,                             09/11/S1




                                      91
                                                                   Date of
Number                                    Title
                        -------------------   -----------------
Energy Program

PBS-E-03-81             Overtime Operation and Space Survey,
                        GSA Lease No. 03B-5875, Patrick
                        Henry Building, 601 D Street, N~W.
                        Washington, D.C.                          08/06/81
PBS-E-04/81             Excessive Charges for Overtime
                        Services, Agriculture Field Office,
                        Washington, D.C.                          09/15/S1

Federal Supply

S-FSS-O 2- 80           Walter International Corporation          04/17/81

FSS/TPUS-F-03-81        Heavy Equipment, Contract No.
                        GS-3DPR-9l011                             o      2/81

FSS/TPUS-F-17-81        Coleman Furniture Corporation,
                        Contract No. GS-00S-81441                 o        81

FSS/TPUS-F-14-81        Heavy Equipment Service, Contract
                        No. GS-3DPR-91018                         05/15/81

PSS/TPUS-F-15-81        Heavy Equipment Service, Contract
                        No. 3DPR-91018                            05/15/81

NC-FSS-17-81            Allegations of Prejudicial Contract
                        Administration                            06/0     81

W-FSS-02-81             Region 9 Service Contracts for
                        Maintenance of Television Receivers       06/05/81

FSS/TPUS-F-16-8l        Small Purchases Contract                  06/09/81

FSS/TPUS-F-21-8l        Interim Report on Review of GSAis
                        Procurement of Paper Plates               06/1      1

FSS/TPUS-F-18-81        Advertising Services, Consumer
                        Information Catalog                       06/30/81

F SS/TPUS- F- 2 0- 81   Possible Alteration of Bid Related
                        Documents                                 07/14/81

FSS/TPUS-F-22-Sl        Review of District and Maryland-
                        Virginia Heating F Id Offices
                        Small Purchases                           08/20/81

W-FSS-04-Sl             Response to Allegations That
                        Waste and Mismanagement Existed at
                        the Stockton, California, Supply
                        Distribution Facility                     08/28/81


                                    92
                                                                  Date of
      Number                               Title                  Report

      NC-FSS-I0-81       Procurement of Cyanoacrylate
                         Adhesives                               08/31/81

      NC-FSS-11-81       Procurement of Cyanoacrylate
                         Adhesives, Contract No. GS-06S-11306    08/31/81

      NC-FSS-12-81       Procurement of Cyanoacrylate
                         Adhesives, Coneract No. GS-06S-1l565    08/31/81

      NC-FSS-13-81       Procurement of Cyanoacrylate
                         Adhesives, Contract No. GS-06S-ll772    08/31/81

      NC-FSS-14-81       Procurement of Cyanoacrylate
                         Adhesives, Contract No. GS-06S-l1938    08/31/81

      NC-FSS-20-81       Dow Corning Proprietary Critical
                         Sealants and Adhesives, Solicitations
                         6PR-W-J0281-W5-N and 6PR-W-J046l-WS-N
                         and the Resultant Contracts             09/22/81

      NC-FSS-21-81       Crit   al Sealants and Adhesives        09/22/81

      FSS/TPUS-F-19-81   Acquisition of General Mechanics
                         Tool Kits, Contract Nos.
                         GS-00S-52574, 74742, 88287, 88509,
                         16206, and 36159)                       09/30/81




GSA DC-01200513
                                    93
